<html>
<title> - THE STATE DEPARTMENT'S HANDLING OF ALLEGATIONS OF VISA FRAUD AND OTHER IRREGULARITIES AT THE UNITED STATES EMBASSY IN BEIJING</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




THE STATE DEPARTMENT'S HANDLING OF ALLEGATIONS OF VISA FRAUD AND OTHER 
         IRREGULARITIES AT THE UNITED STATES EMBASSY IN BEIJING

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 29, 1999

                               __________

                           Serial No. 106-79

                               __________

       Printed for the use of the Committee on Government Reform


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______
                   U.S. GOVERNMENT PRINTING OFFICE
62-410                     WASHINGTON : 2000



                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH, Idaho                   (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 29, 1999....................................     1
Statement of:
    Bergin, Peter, Acting Assistant Secretary and Director of 
      Diplomatic Security; Jacquelyn L. Williams-Bridgers, 
      Inspector General; Bonnie R. Cohen, Under Secretary for 
      Management, accompanied by Edward W. Gnehm, Director 
      General of the Foreign Service; Mary A. Ryan, Assistant 
      Secretary for Consular Affairs, U.S. Department of State; 
      and Don Schurman, Regional Security Officer................    26
Letters, statements, etc., submitted for the record by:
    Bergin, Peter, Acting Assistant Secretary and Director of 
      Diplomatic Security, prepared statement of.................    29
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana:
        American Foreign Service Association statement...........     3
        Letter from Mr. Chen.....................................    23
        Majority reports and exhibits............................    93
        Prepared statement of....................................    13
    Cohen, Bonnie R., Under Secretary for Management:
        Information concerning alleged consular malfeasance......    71
        Prepared statement of....................................    51
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of counsel to Mr. 
      Parish.....................................................    75
    Williams-Bridgers, Jacquelyn L., Inspector General, prepared 
      statement of...............................................    33

 
THE STATE DEPARTMENT'S HANDLING OF ALLEGATIONS OF VISA FRAUD AND OTHER 
         IRREGULARITIES AT THE UNITED STATES EMBASSY IN BEIJING

                              ----------                              


                        THURSDAY, JULY 29, 1999

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:30 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Morella, Shays, McHugh, 
Horn, Mica, McIntosh, Scarborough, Barr, Miller, Hutchinson, 
Terry, Biggert, Ose, Vitter, Waxman, Maloney, Kucinich, and 
Schakowsky.
    Staff present: Kevin Binger, staff director; Barbara 
Comstock, chief counsel; James Wilson, chief investigative 
counsel; David Kass, deputy counsel and parliamentarian; Kristi 
Remington, senior counsel; Kevin Davis, senior investigator; 
Marc Chretien, senior investigative counsel; Mark Corallo, 
director of communications; John Williams, deputy 
communications director; Corinne Zaccagnini, systems 
administrator; Robin Butler, office manager; Michelle White, 
counsel; Carla J. Martin, chief clerk; Lisa Smith-Arafune, 
deputy chief clerk; Phil Schiliro, minority staff director; 
Phil Barnett, minority chief counsel; Kenneth Ballen, minority 
chief investigative counsel; Michael Raphael and Michael 
Yeager, minority counsels; Ellen Rayner, minority chief clerk; 
and Jean Gosa, minority staff assistant.
    Mr. Burton. The committee will be in order. We have some 
motions we have to go through before I make my opening 
statement here.
    A quorum being present, the Committee on Government Reform 
will come to order, and before the distinguished ranking member 
and I deliver our opening statements, the committee must first 
dispose of some procedural issues.
    I would first like to take a moment to welcome the newest 
member of our committee, David Vitter from New Orleans.
    David, welcome. Glad to have you with us. I know that my 
colleagues on both sides of the aisle are really glad to have 
you on the committee, and we look forward to working with you.
    I move that the Subcommittee on Criminal Justice, Drug 
Policy, and Human Resources be expanded from 16 members to 18 
members with 10 members from the majority and 8 members from 
the minority party. All in favor of the motion will signify by 
saying aye.
    Those opposed will signify by saying no.
    In the opinion of the Chair, the ayes have it and the 
motion is agreed to.
    I also move that Mr. Vitter of Louisiana be appointed to 
the majority vacancies on the Criminal Justice, Drug Policy, 
and Human Resources Subcommittee and the National Economic 
Growth, Natural Resources, and Regulatory Affairs Subcommittee. 
All in favor of the motion will indicate by saying aye.
    All opposed will signify by saying no.
    In the opinion of the Chair, the ayes have it and the 
motion is agreed to.
    I ask unanimous consent that all Members' and witnesses' 
written opening statements be included in the record, and 
without objection, so ordered.
    I ask unanimous consent that all articles, exhibits, and 
extraneous or tabular material referred to, be included in the 
record, and without objection, so ordered.
    I ask unanimous consent that one staff report and 
compilation of exhibits regarding this hearing be included in 
the record.
    [Note.--The majority report and exhibits referred to may be 
found at the end of the hearing.]
    Mr. Waxman. If I may inquire, Mr. Chair, I think our staffs 
were in consultation about holding back one of the staff 
reports until later.
    I withdraw my reservation.
    Mr. Burton. Without objection, so ordered.
    I also ask unanimous consent that a statement from the 
American Foreign Service Association be included in the record, 
and without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2410.001
    
    [GRAPHIC] [TIFF OMITTED] T2410.002
    
    [GRAPHIC] [TIFF OMITTED] T2410.003
    
    [GRAPHIC] [TIFF OMITTED] T2410.004
    
    [GRAPHIC] [TIFF OMITTED] T2410.005
    
    Mr. Burton. And finally, I ask unanimous consent that 
questioning in the matter under consideration proceed under 
clause 2(g)(2) of House rule 11 and committee rule 14, in which 
the chairman and ranking minority member allocate time to 
committee counsel or members as they deem appropriate for 
extended questioning, not to exceed 60 minutes, divided equally 
between the majority and minority; and without objection, so 
ordered.
    As I said earlier, I have been involved in a number of 
congressional hearings and investigations over the years. I 
have learned a few things along the way. One thing I have 
learned is that sometimes you begin investigating one problem, 
and in the process, you uncover other problems you weren't even 
aware of. By exposing the problem, shining the light of day on 
it, hopefully you begin the process of fixing it.
    That's what happened under my predecessor Bill Clinger. We 
began investigating the firing of seven Travel Office 
employees. In the process, we discovered that the Clinton White 
House had obtained over 900 confidential FBI files of 
Republicans who no longer worked there.
    It happened again during our investigation into illegal 
foreign fundraising. When Johnny Chung appeared here in May, he 
testified that a general in charge of China's military 
intelligence agency gave him $300,000 to donate to the 
President's campaign. They said they liked the President and 
they wanted to see him get re-elected. But Mr. Chung also 
testified about another problem, one we were not expecting, 
visa fraud. Mr. Chung testified that he saw one of the senior 
officials at the United States consulate in Beijing, Charles 
Parish, accept a shopping bag full of cash in exchange for 
providing visas to Chinese nationals. Now, that's a very 
disturbing allegation.
    Mr. Chung testified that Mr. Parish asked him for $500 to 
pay for a computer class for his secretary. Chung said he did 
it. Chung testified that Mr. Parish asked for $7,000 to pay for 
tuition for several Chinese students studying in California. 
Mr. Chung said he did that, as well. This happened at a time 
when Mr. Parish was approving 25 to 30 visas for Chung's 
business associates.
    My staff called Johnny Chung this week to ask him for more 
information about this. He told us that he was riding in a car 
with Mr. Parish in Beijing. He said that Mr. Parish didn't 
really ask for the money; he demanded it. Chung said that the 
tone in Mr. Parish's voice sent a very clear message, ``I want 
you to do it, you have to do it.'' Chung said that Mr. Parish 
was so insistent that Chung called his wife on the cell phone 
in the car and told her to go to the bank right away and get a 
cashier's check and take it to the school.
    Mr. Chung says he provided his copy of this check to the 
Justice Department. We have asked the Justice Department to 
provide this documentation to us. We asked Janet Reno and the 
Justice Department almost 2 months ago. We are still waiting. 
Once again, we are getting no cooperation from the Justice 
Department and Attorney General Reno.
    Mr. Parish is here today, and we are going to ask him about 
all of these issues.
    A U.S. visa is a very difficult thing to get. People line 
up for blocks outside U.S. Embassies all over the world. They 
wait all day to ask for a visa, some all night. Most of them 
get turned down.
    It has been estimated that the street value of a visa in 
some countries is worth as much as $20,000.
    If a Foreign Service Officer is taking advantage of his 
position by accepting bribes or illegal gratuities in exchange 
for visas, that is a very serious problem, a crime. So we 
started looking into it.
    What we found out was that Johnny Chung wasn't the only one 
making allegations about Mr. Parish. Employees at the consulate 
had been filing complaints about him for over a year and a 
half. American citizens complained to senior Embassy officials. 
Articles started to appear about him in the Chinese press, in 
the Chinese papers. We have a copy of a State Department cable. 
It says that a Chinese Government official approached an 
Embassy staffer at a reception. The Chinese official told him 
that he was amazed at how many unqualified Chinese were getting 
visas. He said it was common knowledge that if you took the 
right Embassy official to dinner and bought him a gift, you 
were guaranteed to get a visa. It seems like the only ones who 
weren't asleep at the switch were the Chinese.
    So what happened with Mr. Parish? Was he fired? No. Was he 
prosecuted? No. Was he disciplined in any way? No. He was 
transferred back to Washington. He was given other sensitive 
assignments. Instead of getting fired, he got a raise. In fact, 
he got four raises.
    We took a hard look at the State Department's investigation 
of Mr. Parish. What we found was very disappointing. Three 
separate offices conducted investigations of Mr. Parish, and 
all three dropped the ball. Documents were destroyed without 
being reviewed. Witnesses were not even interviewed. Bank 
records were not subpoenaed. We found allegations of serious 
wrongdoing that weren't even checked out in a cursory way.
    The result was that a Foreign Service Officer who had been 
accused of serious wrongdoing got shifted from one job to 
another without any action taken against him whatsoever. It 
looks to me like nobody wanted to deal with this problem. 
Everyone dropped the ball.
    Mr. Parish was put to work reviewing visa applications from 
Iraq and Iran. In his employee evaluation form--in which he 
received a glowing rating, by the way--it says that his 
position, ``coordinates with the intelligence and law 
enforcement communities in the handling of the most sensitive 
visa applications, those from persons suspected of terrorism, 
espionage, or other serious threats to U.S. national 
interests.''
    When Mr. Parish was placed in this job, was it known that 
he was under criminal investigation?
    Now, if this was just an isolated incident, maybe it would 
not be such a big deal. One of the reasons I called this 
hearing today is to try to find out just how widespread the 
problem is. There are signs that it may not be an isolated 
incident at all.
    I was talking to one of my caseworkers just the other day, 
and she was trying to help a constituent get a visa for a 
relative in Romania. They were denied. But I learned that there 
are rumors about Embassy officials taking bribes in Romania. I 
have no idea if they are true or not. But these are things we 
need to look into because we have that oversight 
responsibility.
    I was reading an article in the Los Angeles Times. They 
have done an excellent job reporting on this issue. I want to 
read a couple of quotes from the article. ``Of a dozen cases 
known to the Times, a majority of diplomats, suspected of 
wrongdoing in issuing of visas, retired or were moved to 
another post. Cases that were opened took years to develop and 
usually ended up being dropped.''
    ``Those suspected of issuing visas in exchange for money, 
gifts or sexual favors often are allowed to retire or move to 
another post rather than face extensive investigation or 
prosecution.'' The Times article cited cases of fraud that 
happened in Asia, Africa, South America, all over the world.
    I wanted to say something as a matter of fairness. People 
who work in U.S. consulates have a tough, tough job. They face 
tremendous pressure. They face lines of hundreds, even 
thousands, of people who want visas every day, and they have to 
make snap decisions. I think that most of our consular officers 
are honest and hardworking, and do their jobs under very 
difficult circumstances, but it is fairly obvious that there is 
a very small minority that are willing to take advantage of 
this situation.
    I have a statement from the acting president of the 
American Foreign Service Association. They represent all of the 
Foreign Service Officers. I would like to submit this statement 
for the record. He says, ``We deplore them, corrupt diplomats, 
because these isolated incidents besmirch the reputation of the 
overwhelming majority of Foreign Service people who conduct 
themselves with absolute integrity.''
    If the State Department doesn't have the resources or the 
will to punish corrupt officials, then these problems are only 
going to get worse. The consequences are serious. We have a 
serious illegal immigration problem. We have a problem with 
international terrorism. We have a problem with international 
drug trafficking. If Embassy officials can be tempted or 
bribed, these people that I just mentioned are going to take 
advantage of the situation.
    Mr. Parish is here today. I issued a subpoena for him to be 
here. I know he doesn't want to be here. I am sorry to put him 
in this situation, but nobody else has seen fit to ask him 
about these allegations under oath, so we are going to do it 
today. I have also asked several people from the State 
Department to appear and answer questions about their 
investigations of Mr. Parish. We are going to ask them some 
tough questions about whether an adequate job was done. Looking 
at the record, I think it would be pretty hard for an objective 
person to say yes to that question.
    I want to say one thing in their defense before we get 
started. We have had a difficult time with the State Department 
in the past. We have had senior officials refuse to testify. My 
colleague, Mr. Gilman, at the International Relations 
Committee, has had similar problems. I have had to issue 
subpoenas just to get witnesses for hearings. That should never 
have to happen, and it hasn't happened this time.
    I doubt if our witnesses really want to be here today. 
Nobody likes having their work questioned. But they have come, 
they have agreed to testify and answer the committee's 
questions without a subpoena, and I appreciate that. Under 
Secretary Cohen has agreed to testify. I understand that she 
has been traveling recently, and I appreciate that she is here 
today. I hope that she will be able to shed some light on how 
widespread the problem is. I also hope that she will be able to 
inform us about what, if anything, is being done to improve the 
State Department's efforts to investigate these cases. We have 
had pretty good cooperation from the State Department this 
week, and as I said, I compliment them for that.
    I wish I could say the same thing for the Justice 
Department. I am absolutely furious about what happened 
yesterday as we were preparing for this hearing. The Inspector 
General is here today. Her office worked with the Justice 
Department to investigate the Parish matter. She got a call 
from the Justice Department yesterday. They told her that she 
couldn't testify about the work her office has done because it 
is covered by grand jury secrecy laws.
    I have it on pretty good authority that the Justice 
Department has a plan to close this case, but is keeping it 
open, I believe, to keep us from having the Inspector General 
testify; and I believe I know of a number of other cases where 
the Justice Department is deliberately keeping cases open so 
this committee cannot have access to witnesses. I say to my 
colleagues that I think this goes beyond being unconscionable. 
It is an obstruction of justice. If the Justice Department 
plans to close a case, and they keep it open only for the 
purpose of keeping Congress from doing its investigations, then 
that is almost criminal.
    This is absolutely the most ridiculous thing I have ever 
heard. It is typical of the kind of stonewalling that Janet 
Reno's Justice Department has engaged in. For 2 years, they 
have hidden behind the so-called 6(e) rule. They won't share 
any information with Congress. They won't let us immunize 
witnesses. They won't let us interview Charlie Trie or John 
Huang, and now they want to say that other agencies can't share 
information with us. Janet Reno is doing a disservice to the 
Congress, and she is doing a disservice to the American people 
who are represented by the Congress of the United States.
    I would like to make two final points before I yield to my 
colleague, Mr. Waxman.
    First, for most people from other countries, the first 
place they come into contact with anyone from the United States 
is at one of our Embassies. If they are confronted by 
corruption at the Embassy, think about the message that sends 
about our entire country. Think about how that reflects on all 
of the dedicated Foreign Service Officers who are following the 
rules and doing their jobs well. That is why I think this is a 
very important issue.
    Second, this particular case is important because of where 
it happened. Mr. Parish wasn't working in Canada or France or 
Israel. He was working in China. China has been conducting very 
aggressive espionage at some of our nuclear facilities. They 
have stolen nuclear weapons secrets from us, thus endangering 
every man, woman, and child, at some point in the future. China 
has illegally funneled millions of dollars into the United 
States to try to influence our elections. China has been 
exporting nuclear technology and missile technology to rogue 
nations.
    The United States Embassy in Beijing is one of our most 
sensitive posts. If allegations of corruption weren't being 
followed up in Beijing, I don't have a lot of confidence that 
they are being pursued more diligently elsewhere. I hope that 
our witnesses today can persuade us otherwise.
    I now yield to my colleague from California, Mr. Waxman, 
for his opening statement.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T2410.006
    
    [GRAPHIC] [TIFF OMITTED] T2410.007
    
    [GRAPHIC] [TIFF OMITTED] T2410.008
    
    [GRAPHIC] [TIFF OMITTED] T2410.009
    
    [GRAPHIC] [TIFF OMITTED] T2410.010
    
    Mr. Waxman. We are here today to look into the State 
Department's response to allegations that one of its Foreign 
Service Officers, Charles Parish, may have accepted gifts from 
visa applicants and their sponsors while he was posted in 
China, may have committed visa fraud or other crimes, and may 
have violated the State Department's code of ethical standards.
    These are serious allegations against Mr. Parish. They have 
appropriately been the subject of investigations by the State 
Department's Diplomatic Security Service, the State 
Department's Office of Inspector General, and the FBI. It 
appears that all these investigations determined that there is 
insufficient evidence to bring charges against Mr. Parish, and 
now our committee is investigating Mr. Parish.
    This is not a situation where allegations of serious 
wrongdoing went unnoticed or where political appointees 
allegedly interfered with the normal processes of government. 
Apart from a tenuous connection to Johnny Chung, the facts 
surrounding Mr. Parish appear to have nothing to do with the 
campaign finance investigation.
    It appears that the State Department acted reasonably in 
the investigation of Mr. Parish. Junior officers raised 
concerns about his management practices to the second in 
command of the U.S. Embassy on April 11, 1996. By May 1, the 
regional security officer had begun an investigation and 
confronted Mr. Parish with allegations of misconduct. Shortly 
after that, Mr. Parish asked to curtail his assignment in 
Beijing. By May 17th, he was out of China and reassigned to 
Washington while an investigation continued.
    That is not to say there weren't some problems with the 
investigations. Some documents and gifts found in Mr. Parish's 
office were retained as relevant to the investigation. Other 
material was discarded. It obviously would have been preferable 
to retain the material until the investigation was completed.
    Mr. Parish was posted to Washington after he curtailed his 
assignment and may have had continued involvement in visa 
issues during the investigation of this case. The State 
Department probably should not have put Mr. Parish in this 
position until all serious allegations were resolved.
    Even though we can point to mistakes in retrospect, it is 
important to keep the investigation of Mr. Parish in the proper 
perspective. Everyone involved in the investigation of his case 
had other responsibilities. Unlike this committee, which can 
devote unlimited resources to pursuing even the most fruitless 
inquiries, State Department investigators have to make 
responsible choices about priorities and how to allocate their 
scarce time and resources. The evidence indicates that these 
career officials acted in good faith in determining that there 
was insufficient evidence to pursue a criminal investigation 
any further.
    Now, I won't take the time of the committee now to go and 
make a point-by-point correction of a lot of factual 
inaccuracies in the chairman's statement. I will do so for the 
record, but let me say that it lacked the judiciousness that we 
ought to apply when investigating anybody of wrongdoing.
    The attack on the Justice Department seems to me to be 
particularly unwarranted. If the Justice Department were 
continuing an investigation, they obviously still think there 
is more for them to learn; and the chairman thinks there is 
more yet to learn. So they are being criticized for continuing 
their investigation. The chairman says they are continuing 
their investigation but they should close it and then he can 
continue to investigate it.
    Well, that just seems to me contradictory. If they close 
their investigation, they would be criticized because it should 
be taken more seriously. If they keep it open, they are 
criticized because they haven't closed it so that witnesses can 
come before this committee to give evidence that wouldn't 
otherwise be permitted.
    But the fact of the matter is, whether they opened it or 
closed it or kept it going, there are some witnesses that are 
not permitted to come, by court order--not in this case, but 
generally, to come and comment, especially Inspector Generals, 
about information that they derive from grand jury testimony. 
That would just be illegal. So it seems unfair to me to 
criticize the Justice Department for not allowing an IG to come 
in and give testimony, violating the law with regard to grand 
jury testimony.
    Well, I am interested in hearing the testimony of the 
witnesses today. Perhaps we will learn something new and 
significant about this case or in the way the State Department 
handles allegations of wrongdoing; I hope so, and I will look 
forward to seeing whether that would be the case.
    I yield back the balance of my time.
    Mr. Burton. The gentleman yields back the balance of his 
time.
    If we have no other Members who wish to speak, Mr. Parish, 
would you come forward. Would you rise, Mr. Parish, please.
    [Witness sworn.]
    Mr. Burton. Mr. Parish, do you have an opening statement?
    Mr. Parish. No, I don't.
    Mr. Burton. I know you are the attorney, and I would like 
to state for you, because I understand you would like to speak, 
House rule 11(k)(3) provides that witnesses at investigative 
hearings may be accompanied by their own counsel for the 
purpose of advising them concerning their constitutional 
rights. As Mr. Lantos, one of my predecessors--I guess it was 
on a subcommittee--told lawyers for Secretary Pierce in the 
hearings he chaired in 1989, ``In essence, gentlemen, at this 
hearing you are in fact a potted plant.'' I don't consider you 
a potted plant, but I do think it is important that you 
understand that according to the rules you can confer with your 
client, but you can't make any kind of a statement. So your 
client will have to speak for himself.
    Mr. Martin. Mr. Chairman, thank you, and I appreciate that.
    Mr. Burton. Well, you are not a witness, and you are not 
allowed to make any kind of a statement. You can confer with 
your client, but your client is going to have to answer the 
questions or invoke his constitutional rights. I just want you 
to understand what I just said.
    Now, I don't want to press the point, but you are not a 
witness, and you are not allowed to make any comments. You can 
confer with your client, but you are not to speak to the 
committee, OK?
    I will now yield to our counsel, who will start the 
questioning.
    Mr. Wilson. Mr. Parish, good morning.
    Mr. Parish. Good morning.
    Mr. Wilson. Thank you very much for being here. My name is 
Jim Wilson. I am the majority counsel for this hearing. Again, 
thank you very much for being here.
    For the record, you are here pursuant to a subpoena that 
was issued by this committee, correct?
    Mr. Parish. Yes.
    Mr. Wilson. Now, you worked at the United States Embassy in 
Beijing from July 1994 until May 1996; is this correct?
    Mr. Parish. Mr. Chairman, on advice of my counsel, I must 
respectfully invoke my constitutional right to decline to 
answer.
    Mr. Wilson. When you were at the Embassy in Beijing, what 
was your title?
    Mr. Barr. Excuse me, Mr. Chairman, could I ask on what 
basis is that privilege being invoked? Is it because the 
witness believes that answering the question of whether or not 
he worked at the Embassy may tend to incriminate him? I think 
that if the witness is going to claim a privilege, he needs to 
be specific about the basis on which it is invoked.
    Mr. Burton. The witness can speak for himself on that.
    Mr. Martin. I gave the chairman the statement----
    Mr. Barr. Counsel, you are not a witness here.
    Mr. Burton. I think that the witness will speak for himself 
regarding that, Mr. Barr.
    Go ahead. Proceed.
    Mr. Wilson. Mr. Parish, when you were in Beijing at the 
Embassy, how many bank accounts did you have?
    Mr. Parish. On advice of my counsel, I must respectfully 
invoke my constitutional right to decline to answer.
    Mr. Wilson. Will you at any time after this hearing provide 
the committee with any information about your bank accounts in 
Beijing?
    Mr. Parish. On advice of my counsel, I must respectfully 
invoke my constitutional right to decline to answer.
    Mr. Burton. Let me interrupt because I don't want to 
prolong your appearance here, Mr. Parish. Is it your intention 
on advice of counsel to assert your fifth amendment privilege 
on every question the committee puts to you today?
    Mr. Parish. Yes, it is.
    Mr. Burton. Well, I am very disappointed. You are a former 
public servant of the U.S. Government; and to take the fifth 
amendment when your salary has been paid by the taxpayers of 
this country, and there are some allegations about alleged 
wrongdoing that only you can possibly clarify, it is just very 
disappointing that you will not talk to the elected 
Representatives of the U.S. citizenry.
    So I am really disappointed, but it is your position that 
you will not answer any questions and you will assert your 
fifth amendment privileges?
    Mr. Parish. Yes, it is, Mr. Chairman.
    Mr. Barr. Mr. Chairman.
    Mr. Burton. Mr. Barr.
    Mr. Barr. If I could again ask the witness if he could 
enlighten us as to what are you asserting this privilege? Is it 
because you believe that answering questions on your service as 
a former public official will tend to incriminate you?
    Mr. Parish. Mr. Barr, on advice of my counsel, I must 
respectfully invoke my constitutional right to decline to 
answer.
    Mr. Barr. So you are refusing to tell this committee even 
the basis on which you are asserting that privilege; is that 
correct?
    Mr. Parish. On advice of my counsel, I must respectfully 
invoke my constitutional right to decline to answer.
    Mr. Martin. Counsel did submit that basis to the committee.
    Mr. Burton. Counsel, you need not make any comment. I think 
based upon the--Mr. Waxman, we have the time, but we will yield 
to you.
    Go ahead. That's all right. Go ahead.
    Mr. Waxman. The witness is asserting a constitutional right 
to refuse to testify against himself. That constitutional right 
applies even if he is a government employee, because he is a 
citizen of the United States. I am disappointed. I would rather 
have heard from the witness and received information so that we 
could look into the matter that is before us today; but the man 
does have a constitutional right to assert that privilege not 
to give testimony against himself. I guess if there is any 
further--Mr. Barr, as a prosecutor, if he wants to know 
further, some legal matter, we ought to let the lawyer speak. 
Otherwise, the Constitution speaks for itself, and the man does 
have a right.
    Mr. Burton. Let me reclaim my time, and just say that in my 
opening statement I mentioned that the Justice Department, I 
believe--and I think I have it on very good authority--that it 
has been recommended, that the case on Mr. Parish be closed. If 
that is the case, then the IG should be able to testify. 
Evidently, though, there is more to this than Mr. Parish wants 
to divulge. If that is the case, then I cannot understand why 
the Justice Department has recommended that this case be 
closed.
    If the Justice Department has recommended this case be 
closed and the witness himself doesn't wish to testify because 
he may incriminate himself, then the Justice Department is not 
doing its job, in my opinion, because this case should be 
thoroughly investigated. As you will hear as we go through the 
hearing today, Mr. Waxman, I think you will hear from some of 
the witnesses some of the facts that we have been able to get 
in our investigation, that there is a lot more here that needs 
to be investigated that was not investigated; and on three 
separate occasions, the State Department, the FBI, and others 
dropped the ball. That is why we are going on with this 
investigation, not because we want to just prolong this thing, 
but because an adequate job wasn't done.
    We have information that one of the people that was 
investigating this went into Mr. Parish's office, destroyed a 
lot of documents that Parish shouldn't have had in his office 
in the first place and kept very few of the others. Now, those 
documents were relevant to the investigation. Why they were 
destroyed may have been an error in judgment, I don't know, but 
we are going to try to find out. But why those documents were 
destroyed when they are relevant to the investigation is beyond 
me.
    We had, in Chinese newspapers, people at very high levels 
indicating that there were bribes being paid at the consulate 
to a specific individual for visas. That was not pursued.
    We had a letter from a Mr. Chen, which will be submitted 
for the record, where Mr. Chen said it is very clear that the 
gentleman in question, Mr. Parish, was involved in accepting 
bribes; and that was not even followed up on.
    [The letter referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2410.011
    
    [GRAPHIC] [TIFF OMITTED] T2410.012
    
    Mr. Burton. Now, you know, you can criticize us for going 
on with the investigation, but if it is apparent these things 
have not been followed up on, and the integrity of the U.S. 
Government is in question, and that people who are trying to 
get in this country are getting the impression that if you pay 
a bribe, you can get in--and this sends the wrong message 
around the world. In addition, if China, which has been 
involved in espionage and illegal campaign contributions, could 
get access to the United States through bribery of an official 
of our Government, then, boy, we have got real problems.
    And so all I would like to say is that, and I will then 
yield back our time unless Mr. Barr would like a minute, I 
think that this investigation is justified and warranted, and 
we intend to pursue it.
    Mr. Barr.
    Mr. Barr. Mr. Chairman, if I might inquire of the witness 
if he has been interviewed by the State Department, by anybody 
at the State Department, or any other Federal agency concerning 
the allegations which were summarized earlier and you heard by 
the chairman?
    Mr. Parish. The same answer, Mr. Barr.
    Mr. Barr. Which is.
    Mr. Parish. On advice of my counsel, I must respectfully 
invoke my constitutional right to decline to answer.
    Mr. Barr. Were you present, Mr. Parish, during the opening 
remarks of Chairman Burton, and did you hear them?
    Mr. Parish. Same answer.
    Mr. Barr. Which is?
    Mr. Parish. On advice of my counsel, I must respectfully 
invoke my constitutional right to decline to answer.
    Mr. Barr. Are you familiar with Title XVIII of the Criminal 
Code, section 201, relating to bribery of public officials and 
witnesses?
    Mr. Parish. Mr. Barr, on advice of my counsel, I must 
respectfully invoke my constitutional right to decline to 
answer.
    Mr. Burton. Representative Barr, I understand the questions 
that you want to ask, and I am just as concerned as you are 
about this, but it doesn't appear it is going to be fruitful to 
get Mr. Parish to answer any questions because of his 
constitutional right.
    Mr. Barr. Then would it be your intent, Mr. Parish, your 
unequivocal intent to not answer any question that I pose to 
you?
    Mr. Parish. That is correct, Mr. Barr.
    Mr. Barr. Apparently it would be unfruitful, Mr. Chairman. 
Thank you.
    Mr. Burton. Thank you, Mr. Barr.
    Unless other members have something they would like to say, 
I don't think questions would be fruitful. Unless they have 
something they would like to say, I will yield back our time 
and yield to Mr. Waxman.
    Mr. Waxman. There's a vote on the House floor. The witness 
is asserting his constitutional right not to answer questions. 
I have nothing to ask.
    Mr. Burton. That being the case, Mr. Parish, you will be 
excused, and we will recess until the fall of the gavel right 
after this vote. Chair stands in recess.
    [Recess.]
    Mr. Burton. Committee will come to order. I ask unanimous 
consent that a staff report regarding Mr. Parish's improper 
actions be included in the record, and without objection, so 
ordered.
    [Note.--The majority report may be found at the end of the 
hearing.]
    Mr. Burton. Let me just say that we have now Under 
Secretary Bonnie Cohen, and I just told Ms. Cohen that my 
mother's name was Bonnie. I have a soft spot for that. It means 
very pretty. Under Secretary Bonnie Cohen; Inspector General 
Jacquelyn Williams-Bridgers; Acting Assistant Secretary Peter 
Bergin; and Donald Schurman.
    And Mr. Gnehm, are you going to add to their knowledge as 
this goes on?
    Mr. Gnehm. If they so desire.
    Mr. Burton. Well, then I probably ought to have you stand 
and be sworn as well.
    Would you all stand.
    Ms. Cohen. Excuse me, could I add Mary Ryan.
    Mr. Burton. Well, not as a testifier, but as an adjunct. If 
she is going to give you information, you can have her stand as 
well.
    [Witnesses sworn.]
    Mr. Burton. Be seated. We will start with you, Under 
Secretary Cohen. You are recognized, if you like, to make an 
opening statement.

  STATEMENTS OF PETER BERGIN, ACTING ASSISTANT SECRETARY AND 
    DIRECTOR OF DIPLOMATIC SECURITY; JACQUELYN L. WILLIAMS-
 BRIDGERS, INSPECTOR GENERAL; BONNIE R. COHEN, UNDER SECRETARY 
   FOR MANAGEMENT, ACCOMPANIED BY EDWARD W. GNEHM, DIRECTOR 
    GENERAL OF THE FOREIGN SERVICE; MARY A. RYAN, ASSISTANT 
 SECRETARY FOR CONSULAR AFFAIRS, U.S. DEPARTMENT OF STATE; AND 
            DON SCHURMAN, REGIONAL SECURITY OFFICER

    Ms. Cohen. Thank you very much. I think we are all 
pleased----
    Mr. Burton. Pardon me, if we could, we would like, if it is 
possible, to keep your statements to 5 minutes because we have 
a lot of ground to cover.
    Ms. Cohen. We are pleased to be here to explain our visa 
operations and the procedures for investigation of consular 
malfeasance. You did introduce everyone. I think we would like 
to start with a very brief statement from Pete Bergin, who is 
the Acting Assistant Secretary for Diplomatic Security. Then 
the Inspector General Jackie Williams-Bridgers, has a 
statement, and then I have a statement.
    Mr. Burton. OK. Fine.
    Mr. Bergin.
    Mr. Bergin. Thank you, Mr. Chairman. I would ask that my 
written statement be made part of the official record, sir.
    Mr. Burton. Without objection, so ordered.
    Mr. Bergin. Thank you.
    Good morning, Mr. Chairman and members of the committee. 
Thank you for the opportunity to appear before this committee 
to discuss the Bureau of Diplomatic Security's role in 
investigating Charles Parish.
    Embassy Beijing's management first became aware of the 
allegations against Mr. Parish on April 11, 1996, from junior 
officers of the Embassy, who expressed concern about the lack 
of managerial controls in the consular section. The next day, 
the Deputy Chief of Mission initiated an inquiry into the 
concerns and uncovered additional allegations that Mr. Parish 
gave special treatment to some of the organizations that 
sponsored visa applicants and to his personal contacts and 
friends. These allegations stemmed from a birthday party given 
by a Chinese national who was a friend of Mr. Parish.
    Embassy Beijing Regional Security Officer Don Schurman 
promptly advised the Diplomatic Security Visa Fraud Branch in 
Washington that post officials had received allegations of 
questionable management practices and possible unethical 
activities by Mr. Parish in his position as Chief of the 
Nonimmigrant Visa Section. Post reported that they had no 
evidence that Mr. Parish might be accepting money or other 
benefits in exchange for issuing visas. Nevertheless, our Visa 
Fraud Branch opened a criminal investigation on Charles Parish 
based on these reported allegations concerning his suspect 
managerial conduct and the potential for involvement in visa 
malfeasance, which is a violation of the U.S. Criminal Code.
    The Visa Fraud Branch, working with Mr. Schurman, initiated 
its investigation by reviewing all relevant visa documents and 
related information. The RSO conducted a thorough search and 
retrieved and forwarded copies of 27 visa applications from 
individuals who were sponsored by a friend of Mr. Parish. In 
addition, the RSO sent a list provided by post's consular 
section containing anecdotal examples of alleged activities 
which gave the appearance of impropriety, specific instances in 
which visas were allegedly issued under questionable 
circumstances and cases where visas were issued to individuals 
previously refused.
    The Visa Fraud Branch in Washington reviewed the materials 
and discovered sufficient anomalies to warrant further inquiry. 
The investigation focused on the United States operations of 
two Chinese nationals and their New York-based companies that 
appeared to benefit from the issuance of the visas Mr. Parish 
had approved. The two Chinese nationals provided information 
and documentation to the Visa Fraud Branch that they claimed 
supported the legitimacy of their operations. The Visa Fraud 
Branch also obtained official documentation from the 
Immigration and Naturalization Service on the two companies. 
This documentation indicated that INS had approved a number of 
petitions for Chinese nationals who had been sponsored by these 
two companies. The Visa Fraud Branch's investigation found no 
indication of any involvement by Mr. Parish in any criminal 
activities. In the absence of further leads from Beijing, and 
given unproductive investigative results to date, the status of 
the investigation into Mr. Parish was considered inactive 
pending any additional information.
    In January 1998, Mr. Chairman, the FBI and the Department's 
Office of Inspector General made inquiries about Mr. Parish and 
complete access to Diplomatic Security files was provided to 
them. In March 1998, our Visa Fraud Branch also helped 
facilitate the Inspector General's investigation at post with 
the regional security officer. The Federal Government actively 
pursued leads in the Charles Parish case. However, the 
investigations did not reveal criminal wrongdoing, nor did the 
Diplomatic Security investigation find any basis for referral 
to the Bureau of Personnel for any further administrative 
action.
    Mr. Chairman, the Department does not generally discuss in 
public the details of a personnel investigation in view of the 
Privacy Act. The Department is prepared to provide such details 
in this case because of the committee's strong interest and in 
response to a specific request.
    At this time, sir, I would like to turn the testimony over 
to Ms. Bridgers. Thank you.
    [The prepared statement of Mr. Bergin follows:]

    [GRAPHIC] [TIFF OMITTED] T2410.013
    
    [GRAPHIC] [TIFF OMITTED] T2410.014
    
    Mr. Burton. Ms. Bridgers.
    Ms. Williams-Bridgers. Thank you very much, Mr. Chairman, 
for your invitation to testify before this committee on the 
role of my office in the investigation of Mr. Parish.
    For reasons that I will explain in a moment, I am unable to 
testify on the specifics of our investigation. I would, 
however, like to provide both in my statement for the record 
and in oral summary, information that the committee has 
requested regarding my office's investigations of visa fraud 
involving U.S. consular officers since 1990. I have also 
addressed in some detail in my written statement the Office of 
Inspector General's [OIG] general oversight of the Department's 
consular antifraud efforts.
    I am unable to testify regarding OIG's investigation of Mr. 
Parish because of concerns expressed by the Department of 
Justice [DOJ] that my testimony would or could disclose 
information in violation of rule 6(e) of the Federal Rules of 
Criminal Procedure.
    DOJ's concern stems from a recent decision by the Chief 
Judge of the U.S. District Court of the District of Columbia. 
Originally issued under seal, this opinion was not unsealed 
until October 30, 1998, and has not been published in any 
official legal reporter. My office was unaware of this decision 
and its full ramifications for my testimony, until yesterday 
morning when Department of Justice attorneys, who had been 
given a draft of my testimony, provided their final comments.
    My office's investigation of Mr. Parish was conducted 
jointly with the FBI, which served as the lead agency. The 
investigation was initiated as part of DOJ's larger Campaign 
Contribution Task Force probe for which a grand jury was 
impaneled. Based on the recent court decision, DOJ has 
cautioned that any discussion of our investigation could 
implicate rule 6(e) concerns. Thus, DOJ has advised me that 
even interviews conducted by my agents of witnesses who were 
not called before the grand jury could be considered subject to 
the restrictions of rule 6(e) and, thus, grand jury protected.
    Under the circumstances, I feel the only responsible 
approach is for me to err on the side of caution so that there 
cannot be any suggestion that I have acted in a manner other 
than in full compliance with the court's decision. Nonetheless, 
I am pleased to appear before the committee to discuss my 
office's oversight of consular fraud.
    My office's Office of Investigations conducts passport and 
visa fraud investigations, including those targeted against 
employees of the Department. Often the investigations involve 
cooperative efforts with the Bureau of Diplomatic Security and 
other law enforcement agencies. Visa and passport fraud 
currently comprises over 25 percent of our workload. Our cases 
include a broad range of malfeasance related to consular fraud.
    Mr. Chairman, in your recent letter to Secretary Albright, 
you requested information on our investigative cases of alleged 
visa fraud by U.S. consular officers. Since 1990, our office 
has opened 283 consular fraud investigations. Of these, 206 
were visa fraud investigations and 77 were passport fraud 
investigations. Some of the subjects in these investigations 
are Foreign Service national employees in our Embassies. 
However, the majority are not employees of the U.S. Government, 
but individuals in the United States or overseas who act as 
``brokers'' to extort money from individuals in exchange for 
visas.
    Approximately 10 percent of the 283 investigations have 
involved allegations against U.S. diplomats. Since 1990, we 
have opened 29 cases on Foreign Service Officers alleged to 
have engaged in visa fraud. Four of these cases have resulted 
in a referral to the Department of Justice for prosecutorial 
consideration. DOJ declined prosecution on three, and one 
resulted in an indictment. However, this individual was 
acquitted by a jury trial. Of the 29 cases, 2 resulted in 
referrals to the Department's Director General for 
administrative action. According to our records, both employees 
who were the subject of these two investigations received 
letters of reprimand for appearances of impropriety and/or 
improper visa issuances.
    The 283 cases, however, do not fully disclose the extent of 
our efforts in the passport and visa fraud area. Any one case 
may involve multiple subjects. For example, one case in 1998 
resulted in the indictment of 11 subjects, all nongovernment 
individuals.
    Attempts to falsify, alter, or counterfeit U.S. visas or 
passports, or to obtain genuine documents by fraudulent means 
are a constant problem, both in the United States and overseas. 
Fraud associated with these official documents focuses on 
either the document itself, through counterfeiting or 
alteration, or on the issuance process through bribery or 
trickery. Defeating these efforts requires secure documents 
that are difficult to counterfeit and easy to detect when they 
are altered. Additionally, countering fraud requires officials 
who are well trained and informed about common methods of 
fraud.
    The Department has faced significant challenges in its visa 
processing operations over time. In recent years, the 
Department has made significant progress in visa processing 
operations. The Office of Consular Fraud Prevention Programs 
has shifted focus from looking at individual fraud cases to 
identifying systemic fraud-related issues across a large number 
of cases.
    Currently, my office is reviewing the Department's consular 
antifraud programs. While we have not yet issued our final 
report, my written statement details more specific observations 
on our ongoing review.
    Mr. Chairman, this concludes my summary. I would be happy 
to answer questions at the appropriate time.
    [The prepared statement of Ms. Williams-Bridgers follows:]

    [GRAPHIC] [TIFF OMITTED] T2410.015
    
    [GRAPHIC] [TIFF OMITTED] T2410.016
    
    [GRAPHIC] [TIFF OMITTED] T2410.017
    
    [GRAPHIC] [TIFF OMITTED] T2410.018
    
    [GRAPHIC] [TIFF OMITTED] T2410.019
    
    [GRAPHIC] [TIFF OMITTED] T2410.020
    
    [GRAPHIC] [TIFF OMITTED] T2410.021
    
    [GRAPHIC] [TIFF OMITTED] T2410.022
    
    [GRAPHIC] [TIFF OMITTED] T2410.023
    
    [GRAPHIC] [TIFF OMITTED] T2410.024
    
    [GRAPHIC] [TIFF OMITTED] T2410.025
    
    [GRAPHIC] [TIFF OMITTED] T2410.026
    
    [GRAPHIC] [TIFF OMITTED] T2410.027
    
    [GRAPHIC] [TIFF OMITTED] T2410.028
    
    [GRAPHIC] [TIFF OMITTED] T2410.029
    
    [GRAPHIC] [TIFF OMITTED] T2410.030
    
    Mr. Burton. Ms. Cohen, were you going to go next?
    Ms. Cohen. Yes, thank you. I will submit my complete 
statement for the record.
    I would like first to give you a larger perspective on the 
State Department's visa processing operations. We have about 
800 consular officials worldwide. They adjudicated 7.4 million 
nonimmigrant visas in 1998, including 156,000 in Beijing. In 
addition, in 1998, our consular officers worldwide processed 
over 725,000 immigrant visas, handled over 6,000 deaths of 
Americans abroad, visited Americans in foreign prisons 4,800 
times and orchestrated, in 1998, 13 evacuations of Americans 
from countries that had become dangerous.
    In cases where allegations of wrongdoing by government 
personnel do emerge, investigations, as Pete Bergin has said, 
are conducted by the Department of Diplomatic Security 
Services, or DS, whose job it is to enforce the laws of the 
United States pertaining to U.S. visas. DS agents are trained 
law enforcement officers who, in any investigation, follow 
codified procedures contained in the U.S. Criminal 
Investigators Handbook.
    The Department of State's Office of the Inspector General, 
as Ms. Williams-Bridgers has said, also has a mandated 
investigative role concerning all employee misconduct, and DS 
and the OIG cooperate to ensure that the law is enforced.
    DS also works closely with the Bureau of Consular Affairs 
on cases involving employee corruption, attempted bribery of 
consular officials, and counterfeit issuances. Cases that 
implicate consular employees most often involve illegal 
activities designed to facilitate the travel of illegal aliens 
to the United States.
    DS maintains a three-pronged strategy of deterrence, 
enforcement, and education to maintain the integrity of the 
U.S. visa issuance program worldwide. In addition, the training 
program for all consular offices includes classes in internal 
controls and malfeasance. The value of U.S. travel documents, 
as you yourself have indicated, the nature of the overseas 
environment, and the U.S. official's potential vulnerability 
are emphasized in training provided every officer by the Office 
of Fraud Prevention Programs in Consular Affairs. The Bureau of 
Consular Affairs also publishes a consular management handbook 
that serves as a key reference guide to all posts.
    Finally, the regional security officer provides a mandatory 
orientation on security and malfeasance to every arriving 
officer at post. If an investigation of a consular employee by 
diplomatic security reveals misconduct, but Justice declines to 
prosecute, the case is referred to the Office of Employee 
Relations in the Bureau of Personnel. That office reviews the 
information and drafts a proposal for discipline, which is 
reviewed by the Office of the Legal Adviser and the grievance 
staff for legal sufficiency.
    The proposal for discipline is sent to the employee for 
response and then forwarded to a senior Department official for 
decision. In making a decision, the deciding official takes 
into account the report of the investigation, the proposed 
discipline, all information submitted by the employee and the 
aggravating factors, i.e., prior discipline, seriousness of 
offense, or mitigating factors.
    The process for investigating allegations of wrongdoing and 
referrals for disciplinary action for Foreign Service employees 
also has built-in protection for the rights of the employee. 
Until the investigation is completed, no basis exists for 
taking adverse action against the employee. This protects the 
employee against false allegations and accusations. Except in 
very unusual cases, the Foreign Service employee does continue 
to serve, to be assigned and evaluated, and to compete for 
promotion during the investigation. However, the Department 
does monitor the employee's assignment carefully during any 
investigation to ensure that the people's interest is 
preserved.
    Once investigation finds potential wrongdoing, appropriate 
disciplinary actions are taken by the Bureau of Personnel. 
These range from admonition to suspension to termination, 
depending on the seriousness of the offense.
    Mr. Chairman, I want to assure you that the State 
Department and all its career and political employees take visa 
malfeasance very seriously. We have procedures in place to 
handle accusations of malfeasance of consular officials, to 
investigate these cases and to take disciplinary action if 
necessary. At the same time, the Department has procedures to 
protect employees who have been wrongly accused.
    We welcome this hearing. I think you can tell by the number 
of people and the expertise that I have here that we are ready 
to really answer any of the questions you have, to share with 
you how our operation is implemented, to tell you the steps 
we've taken to improve it, and to hear from you your ideas and 
questions. Thank you.
    Mr. Burton. Thank you, Ms. Cohen.
    [The prepared statement of Ms. Cohen follows:]

    [GRAPHIC] [TIFF OMITTED] T2410.031
    
    [GRAPHIC] [TIFF OMITTED] T2410.032
    
    [GRAPHIC] [TIFF OMITTED] T2410.033
    
    [GRAPHIC] [TIFF OMITTED] T2410.034
    
    Mr. Burton. Mr. Schurman.
    Mr. Schurman, do you have an opening statement?
    Mr. Schurman. I do not have an opening statement.
    Mr. Burton. That being the case, we will start the extended 
questioning. I will start by asking all of you, you talk about 
all of the things that you did. Did you get his bank records, 
any of you? Did you get Mr. Parish's bank records?
    Mr. Bergin. Diplomatic Security did not get his bank 
records, because in the view of the agents who were conducting 
the case, in consultation with the Assistant U.S. Attorney, the 
threshold for prosecutorial merit of the case, there was 
insufficient probable cause. So on the basis of that, there was 
no follow-on to request a subpoena from the magistrate.
    Mr. Burton. Do you have any idea how many bank accounts he 
had?
    Mr. Bergin. I do not, sir.
    Mr. Burton. Given all of these allegations, don't you think 
that it would have been wise to check into these things?
    Mr. Bergin. Yes, sir, but in the course of the criminal 
investigation, it was determined that there was insufficient 
probable cause.
    Mr. Burton. Who made the determination that there was 
insufficient probable cause?
    Mr. Bergin. That decision was made by the case agents 
involved in the investigation.
    Mr. Burton. For whom does the case agent work?
    Mr. Bergin. For the Chief of the Criminal Investigations 
Division.
    Mr. Burton. What division oversees that, is that the 
Justice Department?
    Mr. Bergin. No, sir, that is within DS.
    Mr. Burton. So this was a judgment call that there was not 
enough probable cause to check his bank records?
    Mr. Bergin. Yes, sir.
    Mr. Burton. Even though there were allegations in 
publications and in letter form that he was taking bribes?
    Mr. Bergin. Yes, sir, that is correct.
    Mr. Burton. What in the world do you need for probable 
cause? My goodness.
    Ms. Williams-Bridgers, you can't answer anything. Are you 
aware of any information that the task force and the FBI have 
closed their investigation? Or are you aware that the Attorney 
General is--they are just waiting for her to finally close this 
case out?
    Ms. Williams-Bridgers. Upon the concurrence of the Campaign 
Contribution Task Force lead attorneys, the FBI has closed its 
case on Mr. Parish.
    Mr. Burton. So the FBI has closed its case, and I 
understand that the task force has agreed with that; is that 
correct?
    Ms. Williams-Bridgers. That's correct.
    Mr. Burton. So it is only awaiting the Attorney General's 
final determination, right?
    Ms. Williams-Bridgers. I am not sure.
    Mr. Burton. Trust me. It is very clear that the Attorney 
General is holding this case open, and it has been pending for 
some time, and now they are hiding behind 6(e) and will not let 
the committee talk to you because of 6(e). If that does not 
sound like an obstruction of information to the Congress and, I 
believe, an obstruction of justice, I don't know what is.
    Did you get any bank records?
    Ms. Williams-Bridgers. Respectfully, I cannot speak to the 
specific investigative steps that we may have taken during the 
course of the joint investigation.
    Mr. Burton. Because of 6(e)?
    Ms. Williams-Bridgers. Yes.
    Mr. Burton. Because Janet Reno and the Justice Department 
says it is 6(e), even though the case by the task force and the 
FBI has been closed, and it is sent to the AG for the final 
disposition?
    Ms. Williams-Bridgers. It is my understanding that the 
Chief Judge's opinion extends to disclosure of any information.
    Mr. Burton. I understand what you are saying. I wish the 
American people could hear what is going on around here. The 
Congress of the United States is being blocked by keeping cases 
open and hiding behind 6(e) because of Judge Johnson's decision 
and their interpretation of it, so we can't get information. I 
have 121 people that have taken the fifth amendment or fled the 
country, and many of them are hiding out in China.
    Janet Reno must dislike me a lot, or she is working for 
somebody that she should not be working for. This is terrible.
    Mr. Schurman, you served as a regional security officer at 
the Beijing Embassy, correct?
    Mr. Schurman. That is correct.
    Mr. Burton. As part of that job you were in charge of 
determining whether any of the Embassy's officers were breaking 
the law? You were supposed to look into that?
    Mr. Schurman. Yes.
    Mr. Burton. We know in April 1996 the Embassy commenced an 
investigation of Charles Parish. Can you tell us how your 
investigation started?
    Mr. Schurman. I received a call from the Deputy Chief of 
Mission to come to a meeting in his office. That basically 
started the inquiry into Mr. Parish.
    Mr. Burton. Is it not true that junior officers had been 
complaining about Mr. Parish, people who were under his 
control, and about him overstepping what decisions were made?
    Mr. Schurman. I am not aware--that is a fairly broad 
question. Had they complained to me about Mr. Parish; is that 
what the question is, sir?
    Mr. Burton. Yes.
    Mr. Schurman. No.
    Mr. Burton. Had they complained to anybody, to your 
knowledge?
    Mr. Schurman. I am not aware that they complained to 
anybody about--I mean, there were certainly--I am aware that 
there were complaints that Mr. Parish was easier than the other 
visa officers in terms of providing visas, but that was not 
necessarily a complaint of criminal activity.
    Mr. Burton. But if we brought junior officers in here, we 
would probably have some additional information, I am sure.
    Did you ever hear any complaints about Mr. Parish before 
April 1996?
    Mr. Schurman. In terms of, he was easier to--getting a visa 
from Mr. Parish was supposed to be easier than the other 
officers.
    Mr. Burton. Did you hear that Mr. Parish was more likely to 
grant a visa to a young attractive woman than other candidates?
    Mr. Schurman. Yes.
    Mr. Burton. Did you see an article in a local Beijing 
magazine about the Embassy's nonimmigrant visa section?
    Mr. Schurman. No.
    Mr. Burton. Did you see that it contained a statement that 
it was easy to get a visa from Mr. Parish?
    Mr. Schurman. I didn't see that article. I don't read 
Chinese.
    Mr. Burton. Have you heard of the article?
    Mr. Schurman. Since then, yes.
    Mr. Burton. You were aware of the article?
    Mr. Schurman. Not at that time.
    Mr. Burton. Were you aware of it when you started your 
investigation?
    Mr. Schurman. Not at the start of the investigation.
    Mr. Burton. As the investigation progressed, were you aware 
of it?
    Mr. Schurman. Yes.
    Mr. Burton. Why didn't you start an investigation of Mr. 
Parish earlier based upon the information that you received 
about his activities?
    Mr. Schurman. Being easier in terms of giving visas is not 
an illegal activity.
    Mr. Burton. After the April 1996 meeting with Mr. Hallford 
and the Embassy's junior officers, you were ordered to 
investigate Mr. Parish; is that correct?
    Mr. Schurman. After the meeting with Mr. Hallford and the 
consul general, I prepared a telegram which I sent to 
Diplomatic Security. Based upon that telegram, Diplomatic 
Security opened a case. At that point, the official 
investigation began.
    Mr. Burton. Mr. Hallford was indicating that there should 
be an investigation? That is why you sent the wire?
    Mr. Schurman. Mr. Hallford--the primary purpose of the 
meeting was to discuss management, internal controls, and some 
of the ethics issues with Mr. Parish. After attending the 
meeting, I felt that I should prepare my perceptions from the 
meeting and send those to Diplomatic Security in a telegram.
    Mr. Burton. What triggered your feeling like that?
    Mr. Schurman. Because of the concerns about the ethical 
conduct of Mr. Parish.
    Mr. Burton. So they were discussed in that meeting?
    Mr. Schurman. Yes.
    Mr. Burton. After the April--now I want to talk about the 
destruction of documents. One of the first things that you did 
was seal Mr. Parish's office and change the locks.
    Mr. Schurman. That is correct.
    Mr. Burton. Why did you seal his office?
    Mr. Schurman. To ensure that if there were pieces of 
evidence in there, I would be able to get them and----
    Mr. Burton. And they would not be destroyed?
    Mr. Schurman. Or removed.
    Mr. Burton. Destroyed or removed; is that correct? You were 
protecting them because you didn't think that they should be 
destroyed or removed?
    Mr. Schurman. Headquarters directed me. Headquarters was 
running the investigation, and they asked me.
    Mr. Burton. If you seal an office, you are trying to 
protect the evidence?
    Mr. Schurman. Possibilities of evidence, yes, sir.
    Mr. Burton. So you want to make sure that no documents or 
evidence is destroyed; is that correct?
    Mr. Schurman. That is correct.
    Mr. Burton. Did you have an opportunity to review what Mr. 
Parish had in his office?
    Mr. Schurman. Yes, I did.
    Mr. Burton. Did he have a lot of documents?
    Mr. Schurman. Yes, there were a lot of documents in the 
office.
    Mr. Burton. How many?
    Mr. Schurman. Thousands.
    Mr. Burton. Thousands, OK. In fact he had so many documents 
in the office that you sent a cable to Diplomatic Security in 
Washington and asked them to send someone to help you review 
the material, right?
    Mr. Schurman. Yes.
    Mr. Burton. What was DS's response to your request for 
help?
    Mr. Schurman. They asked me for specific pieces of 
information, which I provided them.
    Mr. Burton. Did they send help?
    Mr. Schurman. No.
    Mr. Burton. Why not?
    Mr. Schurman. I can't answer that.
    Mr. Burton. Given that you had to do this investigation by 
yourself, were you able to review all of that material?
    Mr. Schurman. I spent probably in excess of 50 hours going 
through all of the material in the office.
    Mr. Burton. You went through every document?
    Mr. Schurman. At least on a cursory review, yes, sir.
    Mr. Burton. Did you look at them in any detail or did you 
just kind of shuffle through them?
    Mr. Schurman. Diplomatic Security gave me guidelines for 
looking through the material in the office, and that is 
basically what I did. I used those guidelines.
    Mr. Burton. Were you able to take an inventory of all of 
the materials?
    Mr. Schurman. No.
    Mr. Burton. It is my understanding that you destroyed most 
of the materials in Parish's offices and saved only several 
stacks of documents out of a whole room of documents. Why did 
you do that?
    Mr. Schurman. I did not destroy any document in the office. 
After going through all of the documents in the office, I had 
it sealed for about a month. The consulate wanted the office 
back because it is a very cramped office area; they really 
needed the space.
    I had basically felt that I had been through everything in 
the office and found anything that was--could have been obvious 
evidence; and therefore, I turned it back over to the 
consulate. They cleaned out the office themselves. I did not 
destroy any documents.
    Mr. Burton. What do they do with the documents, do you 
know?
    Mr. Schurman. Any of the documents that were official, I 
understand they were going to file them. Anything else that 
they saw as unnecessary, they disposed of it in whatever way 
they wanted to.
    Mr. Burton. It is my understanding, when you talked to our 
staff, you told them you had not looked at all of the 
documents--when you talked to our staff prior to this hearing.
    Mr. Schurman. There were many files. Some of the files were 
basically brochures on companies. I reviewed the brochures and 
to the extent that I believed they were promotional information 
on Chinese companies. I didn't go through those documents in 
detail.
    Mr. Burton. Of course, Mr. Schurman, you know that you are 
under oath?
    Mr. Schurman. I understand.
    Mr. Burton. You told our staff you did not look at all of 
the documents. Did you look at all of the documents?
    Mr. Schurman. I looked at all of the documents, but not 
every detail of each document.
    Mr. Burton. So you did a cursory look?
    Mr. Schurman. Yes, sir.
    Mr. Burton. Now, when the documents were turned over to the 
Embassy, did you say anything to them that the documents should 
be kept secure because this was still an open investigation?
    Mr. Schurman. No, sir.
    Mr. Burton. So what happened to the documents?
    Mr. Schurman. They went into the normal files at the 
consulate.
    Mr. Burton. Are they still there?
    Mr. Schurman. It was the policy of the consulate to destroy 
visa application records after 1 year.
    Mr. Burton. Do you know if they were destroyed?
    Mr. Schurman. I don't know.
    Mr. Burton. So they may still be there?
    Mr. Schurman. I have no information on that.
    Mr. Burton. Do you think that maybe those should have been 
secured because the investigation was ongoing and there might 
have been something in there that was relevant to the 
investigation? I mean, you are making this judgment call all by 
yourself, and there were publications that said he was taking 
bribes and there were letters that said he was taking bribes.
    Didn't you tell anybody that these documents ought to be 
kept in a storeroom someplace for further review?
    Mr. Schurman. I did not.
    Mr. Burton. Why?
    Mr. Schurman. I felt I had looked through the information.
    Mr. Burton. You just said you did a cursory look. If you 
just did that, why in the world would you not say I have not 
had time to go into these in detail, they ought to be stored 
because this investigation is not closed? Why?
    Mr. Bergin. As I mentioned in my statement, the focus of 
the investigation was on these two Chinese nationals, one, Ms. 
Zou----
    Mr. Burton. Wait a minute. You are saying that the focus of 
the investigation was on these two Chinese nationals, but the 
investigation was into Mr. Parish, and these documents were in 
Mr. Parish's office and they contained a lot of information 
regarding visas; and there was some question about whether or 
not he was taking bribes. Why would you allow these documents 
to be disposed of?
    Mr. Bergin. The instruction from Washington to Mr. Schurman 
was to go through this information and locate that information 
which Mr. Parish had in his office which was relevant to the 
relationships that he had with these two Chinese nationals.
    Mr. Burton. Why was it limited to just those two?
    Mr. Bergin. Sir, in my view, with 20/20 hindsight, this was 
not a model investigation.
    Mr. Burton. You have got a guy who is accused of 
wrongdoing. There is an investigation going on. There have been 
allegations about this in Chinese publications. It is pretty 
well known. There is a letter from Mr. Chen that says it is 
going on. It is no secret he had people who were subordinates 
who said there was something funny going on, and an 
investigation has started and you limit it to two people. I 
don't understand that.
    Mr. Bergin. We were reacting to the allegations stemming 
from the meeting that Mr. Schurman attended with Mr. Parish and 
the DCM regarding the----
    Mr. Burton. Two people. I understand it was regarding two 
people, but if he had hundreds and thousands of files in his 
office, wouldn't it be logical that there might be more? And if 
there were more, you should keep those files so they could be 
reviewed thoroughly before you closed that investigation?
    Mr. Bergin. Mr. Chairman, we did some things right and we 
could have done a lot better on other things.
    Mr. Burton. Who ordered from Washington that this be 
limited to those two individuals?
    Mr. Bergin. This was a judgment made by special agents 
within the Visa Fraud Branch.
    Mr. Burton. Who were the special agents who made this 
judgment?
    Mr. Bergin. Their names, sir?
    Mr. Burton. Yes. Who were they?
    Mr. Bergin. I would have to check, and I will get back with 
you.
    Mr. Burton. We would like that for the record.
    Mr. Bergin. The Visa Fraud Branch of Diplomatic Security 
today has 14 agents assigned to it. They have global 
responsibilities. In the case of Mr. Parish, in 1996, because 
of resources, there was one agent, one special agent assigned 
to all East Asia and Pacific.
    Mr. Burton. I don't want to get into that. I understand 
that they had a very heavy workload and it was very difficult.
    Mr. Bergin. If I can just put it in some context.
    Mr. Burton. You can, but make it limited.
    Mr. Bergin. This agent was responsible for a case in Seoul 
where he was TDY for 6 weeks. After that, he was assigned to 
the Olympics, and he was involved in that.
    So what I am suggesting, sir, he was involved in a number 
of activities. Therefore, in terms of prioritizing of the case, 
it was decided to narrow the focus to Mr. Parish's 
relationships with these two Chinese nationals.
    Mr. Burton. Well, in those stacks of documents which were 
in Mr. Parish's office, there was a credenza that was full of 
files regarding Chinese companies and also an extensive set of 
visa applications in his office. Those were probably destroyed 
as well.
    Now if there was some evidence that he had been involved 
with two companies, and there were brochures and visa 
applications from other companies, why would you limit the 
investigation to those two and just shut the case down and send 
the boxes back to the Embassy?
    Mr. Schurman. In addition to removing the material 
specifically requested by DS, I went through and pulled out 
everything that might have some interest, and I retrieved those 
and put those in a box in my office.
    At that point I felt I had gone through everything in 
sufficient detail. And as I say, I put a number of hours in 
there myself. My normal duties were basically taking up my full 
day, and I was spending nights and weekends doing this.
    Mr. Burton. Was it normal for an employee who worked in 
Beijing to have a bank account in Hong Kong?
    Mr. Schurman. Hong Kong was the medical evacuation point. 
It was the nearest sort of First World city to Beijing. So I 
know that a lot of members from the Embassy went down there on 
a regular basis. I don't know----
    Mr. Burton. When you went through the records, you found a 
bank account of Mr. Parish's in Hong Kong. You did not pursue 
that at all?
    Mr. Schurman. I looked at the paper itself. It looked like 
it was an insignificant amount of money, and therefore, I 
decided it was not anything that was out of the ordinary for 
somebody to have an account down there.
    Mr. Burton. I know it was an insignificant amount of money, 
but how did you know that he might not have had $1 million in 
there the week before?
    Mr. Schurman. I didn't know that.
    Mr. Burton. But you put it in the box and it was destroyed, 
and so we don't have that bank account number. Here is a man 
who is accused of taking bribes, and all of the evidence that 
might be there is gone.
    In retrospect, do you think that the statement of Mr. 
Parish's Hong Kong bank account might have been useful to see 
what kind of balances there might have been in there from time 
to time?
    Mr. Schurman. Possibly.
    Mr. Burton. There is another category of documents that 
have been destroyed, and the absence of these documents has 
harmed the committee's investigation. These are the Embassy's 
copies of visa applications processed by Mr. Parish.
    The committee, along with the Inspector General's Office, 
asked the State Department to provide a list of all the visas 
approved by Mr. Parish. It turns out we cannot be provided with 
this list because all of the visa applications were destroyed 
pursuant to an Embassy policy of destroying old files after a 
year.
    That was the policy, to destroy the old files after 1 year?
    Mr. Schurman. That is my understanding.
    Mr. Burton. So if there was bribery that took place, and 
the person got away with it for a year, the evidence would have 
been destroyed in due course. It would have just been destroyed 
as a matter of regular actions of the Embassy, correct?
    Mr. Schurman. Yes. I am not involved with the consulate's 
normal policy and their normal----
    Mr. Burton. Mr. Schurman, at the time the investigation was 
going on, didn't it occur to you to save the visa applications 
that he had processed? You are investigating a man for possible 
bribery, and you have visa applications and there are 
applications on record during that year that have been 
processed. Did it not occur to you to maybe save those visa 
applications just in case there might have been a bribe paid on 
one of those during that current year?
    Mr. Schurman. I saved all of the material that DS asked me 
to save, and then I saved a bunch of additional material.
    The consulate that year processed something in the 
neighborhood of 125,000 visa applications. So I would assume 
that Mr. Parish had a reasonable percentage of those.
    Mr. Burton. I know, but don't they keep track of who 
approved visas for record purposes? They have some record that 
Mr. Parish or somebody approved it, don't they?
    Mr. Schurman. The OF-156 form, which is the application 
form, has a block on it for the individual, the officer who 
either approves or disapproves it.
    Mr. Burton. Did you not think maybe it would be advisable 
to pick out all of them for that current year, that had not yet 
been destroyed, with Mr. Parish's name on it--especially if a 
subordinate had maybe disapproved it, and he approved it later 
for some reason--and keep those with records so they could be 
reviewed when the case was open?
    Mr. Schurman. Diplomatic Security was basically running the 
case. If they had asked me to do that, I would have. I probably 
would have asked for the help to do it. That would have been a 
very significant undertaking.
    Mr. Burton. To find the ones with his name on?
    Mr. Schurman. Yes.
    Mr. Burton. Don't they have a computer that lists which 
ones were approved by each agent?
    Mr. Schurman. There were 125,000 processed that year. I 
would assume that Parish had 30,000 of those, if not more.
    Mr. Burton. So why would it have been so difficult to have 
those spit out and put into a box?
    Ms. Cohen. Many of the committee members, especially Mr. 
Horn, are familiar with the computer capabilities in the past 
of the State Department; and there would have been no 
capability to spit out this kind of information. We have Mary 
Ryan here, who can address this in detail, but basically the 
State Department, with bipartisan support, has been investing 
in computer systems for the last 2 to 3 years.
    Mr. Burton. Let me ask you this. If you have a corrupt 
employee who is handling the visas and taking money, what you 
are telling me if they get away with it for a year, they have 
gotten away with it. And these visas are worth $10- to $20,000 
on the street. So if a person is pretty slick and they can get 
away with it for a year and the documents are destroyed, and 
they are sitting with a bank account in Hong Kong that nobody 
is checking on, is that what you are telling me, no check and 
balance?
    Ms. Cohen. I am not saying that. All cases of visa 
malfeasance are taken very seriously. There has been increased 
training both for consular officers and for DS officers in the 
last couple of years. In addition, people have access to a line 
to the Inspector General to report these things themselves and 
we followup directly.
    Mr. Burton. Mr. Schurman, did you interview the junior 
officers in the nonimmigrant visa section as part of your 
investigation?
    Mr. Schurman. I did not formally interview anyone.
    Mr. Burton. Nobody?
    Mr. Schurman. Not formally.
    Mr. Burton. Did you talk to anybody?
    Mr. Schurman. Yes, sir.
    Mr. Burton. What did they say?
    Mr. Schurman. They basically had the same--told me the same 
things that they had told Scott Hallford.
    Mr. Burton. That was?
    Mr. Schurman. There were concerns that he was overriding 
some of the visas.
    Mr. Burton. Give me a few examples. Did they say it was 
because of a woman? Because she was pretty? Was it because of 
money?
    Mr. Schurman. As I remember it, as you said, there were 
complaints that he would more likely give a visa to a young 
pretty woman than someone else.
    Mr. Burton. OK. Did anybody ever say anything about money, 
that there with a suspicion that he took money for visas?
    Mr. Schurman. No.
    Mr. Burton. Nobody ever said that?
    Mr. Schurman. The visa officers, I do not recall them 
making that statement.
    Mr. Burton. When you were doing the investigation, did 
anybody say that there was a suspicion that he took money for 
visas?
    Mr. Schurman. The consul general and the other gentleman 
who was acting consul general, Dan Piccuta, both stated that 
they did not believe that he was taking money for visas.
    Mr. Burton. Were you aware that he took his secretary and 
another Chinese woman to Las Vegas and California, were you 
aware that a maid went into his room and said she saw $10,000 
lying on the bed, and that he was there at the expense of a 
company?
    Do you know who paid for that room? Is it legal for a 
company to pay for those rooms? Isn't there a limitation on how 
much a Foreign Service Officer can take from a company?
    Mr. Schurman. The first part is--I was not aware of any of 
the information in Las Vegas. I was aware that he went with his 
secretary and another woman. That was reported in my first 
telegram back to the Department. I was not aware--nothing was 
reported----
    Mr. Burton. Did you find out who paid for their 
accommodations?
    Mr. Schurman. I asked Mr. Parish in the first meeting, and 
he said that he paid for his trip back there himself.
    Mr. Burton. Did anybody check to see if it was being paid 
for by one of the people who had been the beneficiaries of his 
visas?
    Mr. Schurman. I don't know if anybody checked or asked.
    Mr. Burton. Did you ask him about whether he had violated 
the Embassy's nonfraternization policy with Chinese?
    Mr. Schurman. Yes, I did.
    Mr. Burton. And what did he say?
    Mr. Schurman. He did not answer that question.
    Mr. Burton. You didn't pursue it? He just said that he 
wouldn't answer it?
    Mr. Schurman. I am not--he did not answer the question.
    Mr. Burton. When you interviewed him, did you talk to him 
about the gifts that he had received and the value of those 
gifts that were in his office?
    Mr. Schurman. Yes.
    Mr. Burton. Were they all under $20?
    Mr. Schurman. No.
    Mr. Burton. Were they expensive?
    Mr. Schurman. Some were.
    Mr. Burton. How much?
    Mr. Schurman. The one I recall, there was a pair of cuff 
links from one of the local department stores, and it was in 
excess of $200.
    Mr. Burton. After the interview, you and Mr. Hallford sent 
a cable back to Washington stating that you thought Mr. Parish 
was not accepting money for services. How did you come to that 
conclusion?
    Mr. Schurman. Would you repeat that, please.
    Mr. Burton. How did you come to the conclusion that Mr. 
Parish wasn't getting money? You wired back to Washington 
stating that you and Mr. Hallford thought that he was not 
accepting bribes for visas.
    Mr. Schurman. I don't recall stating that I thought that.
    Mr. Burton. Was there a cable sent back? Who sent the 
cable?
    Mr. Schurman. I originated all of the telegrams regarding 
the case from Beijing.
    Mr. Burton. But you never searched his apartment or bank 
records?
    Mr. Schurman. That's correct.
    Mr. Burton. I see that my time has expired.
    Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman.
    As I listened to the chairman's questioning, it sounds like 
an autopsy of the investigation that took place, and perhaps we 
can learn, for the future, how to handle these kinds of 
investigations better.
    Is it your position, each of you, that you tried to do your 
best, given the resources you had available, given the fact 
that you had to make some prioritization of all other things 
that you needed to do, but now that we look at it perhaps it 
wasn't a perfect investigation? Is that what we are hearing 
from all of you?
    Mr. Bergin. Yes, sir. I would say both the agents in 
Washington and Mr. Schurman acted completely in good faith.
    Mr. Waxman. Let me ask you this. Were any punches pulled? 
Was there any kind of sinister interference by anyone to try to 
protect Mr. Parish, to try to hinder the investigation?
    Mr. Bergin. From my reading of the record of the case, 
absolutely none.
    Mr. Waxman. Let me ask all of the other witnesses. Do any 
of you have any evidence or can you think of any kind of reason 
that more wasn't done in pursuing this investigation because of 
anything other than lack of resources?
    Mr. Schurman. No one attempted to interfere with my 
investigation. My impression was that many of the officers 
would have liked me to have found evidence, and if they had 
some, they would have presented it.
    You are correct, there was no interference at all with the 
investigation.
    Mr. Waxman. In hindsight we can talk--yes.
    Ms. Cohen. I wasn't there at the time, but I have had the 
opportunity to look at this, and to remind everyone, this has 
now been investigated three times: first by Mr. Schurman in DS, 
then by the IG, and now by the FBI. To the best of my 
knowledge, no one has found any criminal activity, and I think 
the chairman alluded to that.
    Obviously, we agree in hindsight that more could have been 
done, and perhaps more done more carefully. But we are in the 
process of addressing that.
    We do have new leadership in DS, Peter Bergin. In addition, 
we have for the first time a security professional as the 
Assistant Secretary for Diplomatic Security.
    Mr. Waxman. I think the best thing that we can do now is 
learn for the future.
    Ms. Williams-Bridgers. Mr. Waxman, as the Under Secretary 
just mentioned, the Office of Inspector General conducted its 
investigation quite separate from that of the Bureau of 
Diplomatic Security and subsequent to the investigation by 
Diplomatic Security. And we pursued all viable leads and 
determined, in consultation with the Justice Department and the 
FBI, that there was no evidence to substantiate the allegations 
that we were pursuing.
    Mr. Waxman. I know that. Did you find any evidence of 
anybody interfering with the investigation so that all of the 
evidence wouldn't come forward and that Mr. Parish was going to 
be protected?
    Ms. Williams-Bridgers. I can say that no one interfered 
with the course of our investigation.
    Mr. Waxman. That is just not on the radar screen of anyone 
who reviewed this investigation; is that correct?
    Ms. Williams-Bridgers. I have not had any experience with 
interference with any investigation that we have conducted.
    Mr. Waxman. You would think that the Diplomatic Security 
Service had nothing to do, but to devote all of its resources 
to investigating Charles Parish.
    Mr. Schurman and Mr. Bergin, let me see what overseas 
diplomatic service personnel, and particularly a regional 
security officer, might be responsible for doing. You manage 
all of the programs to protect State Department's facilities; 
isn't that right?
    Mr. Bergin. Correct.
    Mr. Waxman. That means managing the security force and 
assessing threats by terrorists or others against the Embassy, 
consulate, and other buildings?
    Mr. Bergin. That is correct, sir.
    Mr. Waxman. You are also responsible for protecting all of 
the State Department personnel from criminal or terrorist 
threats while they are abroad?
    Mr. Bergin. That is correct.
    Mr. Waxman. And you are responsible for safeguarding all of 
the classified and sensitive information used by our diplomats 
every day in their work?
    Mr. Bergin. Yes, sir.
    Mr. Waxman. And you are also responsible for conducting 
investigations into all allegations of visa and passport fraud; 
is that correct?
    Mr. Bergin. That is correct.
    Mr. Waxman. And you serve as the principal adviser to the 
Ambassador on security matters; is that correct?
    Mr. Bergin. Yes, sir.
    Mr. Waxman. That is obviously a lot of ground to cover and 
you have to make a lot of hard decisions as to allocating your 
time and resources; isn't that a fair statement?
    Mr. Bergin. Yes, sir.
    Mr. Waxman. I am impressed to hear that for the whole world 
we have 14 investigators who look at, what, diplomatic visa 
fraud?
    Mr. Bergin. We have 14 agents in our Visa Fraud Branch, and 
their responsibility is global for every Embassy; and there are 
200-plus Embassies and consulates around the world where visas 
and passports are issued, not to include the----
    Mr. Waxman. Is there only one for East Asia?
    Mr. Bergin. Back in 1996, yes, that is correct.
    Mr. Waxman. So it seems to me if you didn't have the 
resources, it is unfair to criticize you for not making this 
the highest priority. After all, we don't have any basis for 
letting you appoint a special prosecutor on Mr. Parish the way 
that we have special prosecutors sift through people's personal 
life for every possible wrongdoing, from the President of the 
United States to members of the Cabinet; and I hardly think an 
accusation against a person means that person ought to be 
investigated for every possible crime that he may have possibly 
committed.
    Mr. Bergin. Back in 1996, we had approximately 640 special 
agents who were responsible on a worldwide basis for all of 
those missions that we perform on behalf of the American 
public.
    Today we are approaching 980, thanks to the Congress, 
thanks to Secretary Albright. In the aftermath of the East 
African bombings, we have been given 200 special agents, and 
their first mission is the protection of life. Protection of 
the integrity of our passports and visas is a corollary 
responsibility.
    Mr. Waxman. I am pleased to hear that.
    Now let's go back to this case, and now we are looking at 
how this case should have been a higher priority than 
everything else, and so there were more resources devoted to 
it.
    In this case, you received information that a midlevel 
officer may have mismanaged his office and may have breached 
the State Department's Code of Ethical Conduct.
    Mr. Schurman, you conducted an investigation into Mr. 
Parish's activities. Did you have unlimited time and resources 
to do that job?
    Mr. Schurman. No, I didn't.
    Mr. Waxman. Do you think you and your superiors made 
reasonable decisions about the amount of investigative 
resources to put into this investigation?
    Mr. Schurman. Yes, sir.
    Mr. Waxman. It wasn't just Mr. Schurman that was involved 
in this inquiry. It was Ambassador Sasser and his Deputy Chief 
of Mission, both of whom personally looked into the matter.
    Ms. Cohen, would you say that our Embassy in China is one 
of our more important posts in the world?
    Ms. Cohen. It is critically important.
    Mr. Waxman. In addition to worrying about personnel 
matters, do the Ambassador and his DCM have to worry about a 
host of other issues, some of which impact our foreign policy 
interests?
    Ms. Cohen. Absolutely.
    Mr. Waxman. In addition to Mr. Parish, they were spending 
time thinking about most favored nation status, which was 
coming up for a vote, and thinking about the imminent transfer 
of Hong Kong to China's control. They were probably thinking 
about sanction decisions relating to China's sale of nuclear 
technology to Pakistan. And they might have been thinking about 
human rights issues, nonproliferation, global environmental 
issues, tensions between China and Taiwan, tensions between 
North and South Korea, and a whole host of issues which are 
very important to the United States; isn't that correct?
    Ms. Cohen. Yes.
    Mr. Waxman. In light of everything going on in the United 
States Embassy in Beijing, do you think that the State 
Department acted too slowly or was derelict in its 
responsibility in investigating Mr. Parish and resolving the 
accusations made against him?
    Ms. Cohen. I think the State Department acted very 
promptly. Whether now, in hindsight, we need to tighten 
procedures or tighten training, which we have done, to make 
these kinds of investigations more thorough, we are looking at 
that.
    Mr. Waxman. These hearings that we are having today, or 
this hearing today, arose out of Johnny Chung's testimony 
before the committee in May. Mr. Chung made allegations that 
some people told him information relating to Chinese attempts 
to influence our elections. He also said that he had some 
dealings with Mr. Parish. After hearing these allegations, our 
committee began to investigate Mr. Parish to see if he was 
connected with the Chinese plot to influence our elections.
    Let me ask, are any of you aware of any evidence that the 
Chinese Government tried to influence our elections through 
Charles Parish?
    Mr. Schurman. I am not.
    Ms. Williams-Bridgers. I am not.
    Mr. Bergin. I am not.
    Ms. Cohen. I am not.
    Mr. Waxman. The investigation did not even concern 
violations of our campaign fundraising laws at all, did it, 
that you conducted? In other words, did your investigations 
involve campaign finance laws?
    Mr. Schurman. No, mine did not.
    Mr. Waxman. Did any of yours?
    Mr. Bergin. No, sir.
    Mr. Waxman. The investigations by the Bureau of Diplomatic 
Security at the State Department and by the Office of Inspector 
General seem to have involved routine investigative decisions 
by career employees such as, who do you interview and when do 
you stop investigating; was everyone involved in the 
investigation at the State Department a career employee rather 
than a political appointee?
    Mr. Schurman. To my knowledge.
    Mr. Bergin. To my knowledge, yes, sir.
    Ms. Cohen. Yes, sir.
    Mr. Waxman. Are any of you aware of any attempt by any 
political appointee to stop or otherwise affect the 
investigation of Mr. Parish?
    Mr. Schurman. I am not.
    Ms. Williams-Bridgers. I am not.
    Mr. Bergin. I am not aware.
    Ms. Cohen. I am not aware.
    Mr. Waxman. It seems to me what we have at this hearing is 
one particular case which may not be much of anything. It does 
not have to do with a Chinese plot to influence our elections. 
In fact, it does not appear to have anything to do with 
political fundraising. It seems to be about a routine 
investigation performed by the State Department and by its 
Inspector General, and whether you did enough in investigating 
what is a serious violation. If there were, in fact, bribes 
being taken by Mr. Parish, or anybody that works at Embassies, 
I would want it investigated, and it seems to me that you did 
what you thought was appropriate.
    Now I have a few questions for Ms. Williams-Bridgers about 
the Inspector General's investigation. Do I understand that the 
Office of Inspector General opened an investigation into Mr. 
Parish's possible misconduct on January 22, 1998?
    Ms. Williams-Bridgers. That's correct.
    Mr. Waxman. And your agents conducted a number of 
interviews in the course of the investigation?
    Ms. Williams-Bridgers. I cannot speak about specific 
investigative steps that we took during our Parish 
investigation, but it is normal practice for us to conduct 
numerous interviews.
    Mr. Waxman. Did your office investigate jointly with the 
FBI and the INS?
    Ms. Williams-Bridgers. We were engaged jointly with the 
FBI.
    Mr. Waxman. And your investigators joined with the FBI to 
interview Johnny Chung; is that correct?
    Ms. Williams-Bridgers. I cannot speak about any specific 
interviews that we conducted, sir.
    Mr. Waxman. Is it the case your office closed the 
investigation on February 23, 1999, and concluded that ``No 
evidence had been developed which substantiates criminal 
conduct by Parish in this matter. Since all logical leads have 
been completed with a negative result, no further investigative 
activity appears warranted,''?
    Ms. Williams-Bridgers. Yes.
    Mr. Waxman. Now the chairman has said that the Justice 
Department has not officially closed its investigation, and he 
is accusing the Justice Department about the motives of the 
Justice Department in not concluding their investigation. He 
says that he thinks that they don't want this committee to be 
able to do its job. Have you heard of any evidence that points 
to that conclusion?
    Ms. Williams-Bridgers. The FBI has officially closed their 
investigation of Mr. Parish with the concurrence of the 
Campaign Contribution Task Force lead attorneys on this case.
    I am sorry, was----
    Mr. Waxman. The FBI has closed its investigation and the 
Justice Department still won't allow you to testify?
    Ms. Williams-Bridgers. Because of their interpretation of 
the Chief Judge's opinion, which would consider any and all 
information collected during the course of the investigation as 
being 6(e) protected, meaning I should not disclose any of that 
information.
    Mr. Waxman. If the Justice Department officially closed its 
investigation, does it have discretion in any way to allow you, 
even if the investigation were completed, to talk about 6(e) 
materials?
    Ms. Williams-Bridgers. It is my understanding that the 6(e) 
protection extends indefinitely beyond the closure of the case.
    Mr. Waxman. What is the reason for that? What is the 
rationale? I know that there is a court case that said that, 
but what is the rationale for a judge not allowing Congress to 
have grand jury information?
    Ms. Williams-Bridgers. I am not in a position to answer 
that, but if the Chair indulges me, I would call upon OIG 
Counsel, Rick Reback, or we can provide that information for 
the record.
    Mr. Chairman, Mr. Waxman has asked me a question that I am 
not able to respond to accurately. But if I can call----
    Mr. Burton. For the record, you are welcome to respond.
    Mr. Waxman. Let me see if I can get the information another 
way.
    The Justice Department advised you not to discuss the 
Parish matter because discussion could improperly disclose 
evidence taken from the Federal grand jury. My understanding is 
that these concerns aren't just the imaginings of the Justice 
Department, but are founded on rule 6(e) of the Federal Rules 
of Criminal Procedure and a ruling by Judge Norma Holloway-
Johnson of the U.S. District Court for the District of 
Columbia.
    We have heard Chairman Burton accuse the Attorney General 
of keeping a criminal case open on Mr. Parish just so the 
Inspector General would be barred from discussing grand jury 
material protected by rule 6(e). Rule 6(e) imposes a broad 
blanket of secrecy which under these circumstances can only be 
lifted by a court order and only then upon a strong showing of 
particularized need and the court's careful balancing of 
whether the interests served by disclosure will outweigh the 
interests in secrecy. The protection given by rule 6(e) does 
not end when a criminal investigation closes.
    And so what we have here is a matter that is irrelevant for 
purposes of whether the Justice Department's investigation of 
Mr. Parish is open or closed; isn't that correct?
    Ms. Williams-Bridgers. The guidance provided by the Justice 
Department attorneys reflected on their interpretation of the 
Chief Judge's opinion and not on the existence of the 
investigation.
    Mr. Waxman. Well, we are committed to an oversight 
jurisdiction over the State Department, Justice Department, 
over the whole Government, and we want to be sure that our 
Government is doing everything that it should be doing, and if 
need be, we change the laws; if resources are needed, we 
provide additional resources.
    It seems so strange that we are now taking on a 
congressional investigation of allegations against one man--
serious--but that have been investigated three times and led to 
no criminal prosecution. And we bring him before a committee of 
Congress where he asserts his constitutional right, which he 
has an opportunity as an American citizen to do, and then you 
are brought before us and criticized in retrospect on what it 
appears that you have done properly, maybe not as completely 
and not as perfectly as it could have been done, but you had 
other things to do.
    And so I guess the only thing that I can see of value in 
this hearing is to see if you have any recommendations on how 
future investigations should be conducted, given that we don't 
want to tolerate any corruption or wrongdoing.
    Do any of you want to respond now, or perhaps we can leave 
the record open and have some further submissions to us? That 
seems to me to be the value of this hearing when all is said 
and done.
    Ms. Cohen. I think that we all agree that is the value of 
the hearing, and we welcome the hearing on that basis. We have 
been evaluating our procedures. DS has been working with the 
Inspector General, and we welcome the opportunity to submit for 
the record the steps that we have taken and are taking and also 
would be glad to hear any additional suggestions you all have.
    Thank you very much.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2410.035
    
    [GRAPHIC] [TIFF OMITTED] T2410.036
    
    Ms. Williams-Bridgers. I would be glad to submit our 
comments for the record.
    Mr. Waxman. Do you know whether you need more resources to 
do the job and can you tell us how much more money you will 
need?
    Ms. Cohen. I have said this in other forums.
    This agency is strapped for resources on an operational 
basis. I am not talking about foreign policy investment, but 
the costs of operating around the world. We are certainly a 
great superpower, yet on an operational basis, our Department 
of State is underfunded.
    Any of you who take a trip--and I know that some of you 
have, in the Dominican Republic or Haiti or China and have seen 
people waiting for visa services, know what I'm talking about. 
China is a good example; people were storming the Embassy in 
China and we only have a 10-foot setback. We are on record 
looking for more resources, particularly for security 
operations. We are very appreciative of the bipartisan support 
that we got for the emergency security supplemental this 
summer, but that is only a start in rebuilding the 
infrastructure of this department.
    Mr. Waxman. I think if Congress is going to call you in to 
respond to the job that you have done, and then does not take 
seriously the requests for additional resources so you can do 
the job, I think that is somewhat hypocritical.
    And none of us wants to see any kind of corruption go on in 
our Embassies. We know that you have a lot of responsibilities, 
sometimes including taking care of Congressmen when we travel 
officially to meet with people. I think that is an appropriate 
function for Members of Congress in doing our job, but 
certainly it doesn't seem fair to ask you to do everything and 
then not give you the resources to do what is important to be 
done.
    One last question: Do any of you think that we ought to 
look into the idea of having an unlimited special prosecutor 
investigate anybody who is accused of any offense, such as 
those offenses that were alleged against Mr. Parish? Do you 
think that makes sense?
    Ms. Williams-Bridgers, you are a prosecutor.
    Ms. Williams-Bridgers. No, I am not an attorney.
    Mr. Waxman. Are any of you prosecutors? I guess you are not 
the right ones to ask.
    Ms. Cohen. This is not in response to that question, but I 
think in this context it is helpful to know that allegations of 
visa fraud come up all the time. I think if you think about it, 
perhaps even where you are, people will say--will advertise or 
say that they can get visas because they know somebody. People 
overseas say they can get visas because they know somebody. It 
is a way for them to take advantage of something which is in 
very short supply.
    We do investigate all accusations that come to our 
attention. We refer some to the IG. In addition, she gets words 
of allegations through her own channels. So we take them very 
seriously. But people like to portray themselves as connected 
to the visa system.
    Mr. Waxman. I would imagine that when you have somebody who 
can make the decision whether you get a visa or not, that is an 
important decision. And if somebody who has that kind of 
discretion is corrupt, they can get bribes. That is why we need 
a whole way to make sure that we are checking on people.
    Mr. Bergin. Can I add something, Congressman? This 
particular hearing focuses on a Foreign Service Officer who 
allegedly made some bad decisions.
    I had the very good fortune before taking this job of being 
the RSO in India, and had the privilege of working with a 
Foreign Service Officer, a consular officer by the name of 
James Waller, who worked closely with us on a visa fraud case 
in which a travel broker, using a foreign national employee of 
that consulate in Bombay as an intermediary, tried to bribe Mr. 
Waller to issue 31 visas for $130,000. It took a nanosecond for 
him to report this bribe to the RSO in New Delhi. We acted 
swiftly and meaningfully and were able to encourage this travel 
broker to travel back to Galveston, TX, where she was 
interviewed and apprehended and arrested.
    In India, we filtered through hundreds of allegations of 
visa fraud. These are very complex, complicated, time-consuming 
investigations. In many cases, we cannot get to the threshold 
that a crime was committed. Yes, there was an appearance of 
improprieties. And we have a relationship with the Director 
General of the Foreign Service to ensure that these 
improprieties are dealt with from a personnel perspective.
    Mr. Waxman. I would hope that you can do everything 
possible to stop these improprieties from happening because it 
is a serious matter; but I have to tell you, from the 
perspective of a Member of Congress, in my time, I have had 
people come forward with immigrants in my District and act as 
if they can represent them to get me to do something that I 
would ordinarily do for anybody that lives in my district, and 
we try to make it clear that no one is to get compensation for 
the work that we do in our office.
    We had a situation once where the caseworker received a 
gift from an immigrant family because they were so grateful and 
they thought that is what they were supposed to do. You have to 
be vigilant. Sometimes it is the culture where people think 
that they are supposed to pay as a way of showing appreciation 
or to get what they want, but this should not be tolerated by 
our Embassies or consulates or by our congressional offices or 
by the INS. The rules should be followed and apply to 
everybody.
    The counsel for Mr. Parish wanted to make a statement and 
you properly ruled that he wouldn't be permitted to speak, but 
I want to submit for the record his statement.
    Mr. Burton. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2410.037
    
    Mr. Waxman. Let me just ask any of you, is there anything 
else that you want to add to the subject matter that is before 
this committee today on this hearing that you haven't had a 
chance to talk about?
    Ms. Williams-Bridgers. No.
    Ms. Cohen. Well, at the risk of overstaying my opportunity 
to talk, again, having been there only 2 years, the people who 
apply to the Foreign Service, who get selected, who dedicate 
themselves to this career are extraordinary. Everyone is 
required to do 2 years overseas in consular duty, and they are 
extraordinarily dedicated to serving both America and to 
serving the communities in which they find themselves.
    I think an example of that is the consular official--again 
in China, which seems to figure large these days--who in the 
midst of the attacks on the American Embassy left the Embassy 
where she was, managed to get out with the records of Americans 
who were applying for adoptions of Chinese children and were 
waiting in hotels in China with these children, and processed 
them even as the attacks on the Embassy continued.
    So while there are allegations, and they all have to be 
investigated, we have a very dedicated group of people joining 
the Foreign Service.
    Mr. Waxman. I think we all appreciate that and the chairman 
made that comment, as well, in his opening statement. He knows 
that most of our Foreign Service personnel all around the world 
do a great deal of service to our country and we do appreciate 
it.
    We need to hear from you your recommendations on how we can 
help them do their job better. And if there is a problem, help 
you do the job of dealing with those problems and investigating 
properly and prosecuting, if necessary, anybody who has acted 
corruptly.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Burton. Mr. Horn.
    Mr. Horn. Thank you very much, Mr. Chairman.
    I have been interested in the discussion so far. Let me try 
to get a few things straight in my own mind.
    Mr. Schurman, in the investigation of the office of Mr. 
Parish, were the records all written in English or were there 
also Chinese notations? Because we do have native personnel in 
every Embassy in the world and not everybody can know the 
language. What did you find on those records? Were the records 
in English or were the records in Chinese, yes or no?
    Mr. Schurman. The official records, the official 
application, has both English and Chinese on it.
    Mr. Horn. What you were looking for, what kind of records 
did they have, were they all in English or Chinese or a mixture 
thereof?
    Mr. Schurman. Since I didn't speak Chinese, I would have to 
say I was looking for anything in English.
    Mr. Horn. Did anybody translate what was on the documents, 
whether they are just notations or not, of Chinese? You can't 
read Chinese characters?
    Mr. Schurman. That is correct. No one came in.
    Mr. Horn. So you couldn't look at the cards that were being 
kept or the visa applications and--they were not all in 
English; is that correct?
    Mr. Schurman. That is correct.
    Mr. Horn. Why didn't you get somebody that could read 
Chinese to help you with that?
    Well, it is just obvious. You are looking like a blind man 
at the cards and you don't know what is there, and I don't see 
how you can even do an investigation.
    Mr. Bergin. Sir, if I may add, the official forms, the 
156s, they are in English. Those are the official applications 
for a visa.
    Mr. Horn. And you feel that by going through those in just 
the English part, you are going to find out whether Mr. Parish 
has done what he has been accused of or not?
    Well, Mr. Chairman--either you do or you don't. You are 
telling me all you did was look at was the English part of the 
record?
    Mr. Schurman. I looked at both the official records and 
other documents in that office. I would say there were numerous 
documents.
    Mr. Horn. What was the date that you looked into that 
office, do you remember the date?
    Mr. Schurman. Not specifically, but it was between--toward 
the end of May 1996, to the end of June 1996.
    Mr. Horn. Do you have available there exhibit CP-29, and if 
we can put that on the screen. That is a memorandum from the 
political officer at the Embassy in Beijing to the Deputy Chief 
of Mission, the person who is acting in lieu of the Ambassador 
often when the Ambassador is away on travel. Do you know at the 
time who was the DCM for our Embassy there? It is redacted out 
on my copy.
    Let me just read the text of this. ``At a May 30 dinner in 
Qingdao, hosted by the local foreign affairs office,'' that was 
our people,

    the political officer was told by Chinese officials, as 
well as local Chinese businessman, that ``everyone knew'' that 
it was ``very easy'' to get a nonimmigrant visa from the U.S. 
Embassy in Beijing. The Chinese said if you anticipated that 
you might have difficulty in obtaining a visa--for instance, 
you were applying for a visa allowing you to work in the United 
States, but you did not speak English--you simply took ``the 
black official'' in the Embassy to dinner, gave him a gift and 
you were guaranteed a visa.

    The next paragraph,

    Responding to a question, a Qingdao Foreign Affairs Office 
representative said he had first learned of this ``procedure'' 
over a year ago when he was living in Los Angeles. He stated 
that at that time he had met ``many'' obviously unqualified 
Chinese people who, ``he was surprised to learn,'' had been 
issued PRC passports. He commented that he was even more 
amazed, however, that the U.S. Government had issued these 
people visas. According to the official, it should have been 
obvious that these people were not qualified for certain types 
of visas which would normally go to trained business people or 
scholars. He reportedly questioned a number of these people as 
to how they were able to obtain U.S. visas and was told about 
``the black official,'' at the consular section in the U.S. 
Embassy in Beijing.

    Now, did you see that memo at all?
    Mr. Schurman. I don't recall this memo.
    Mr. Horn. Did anybody here at the top end in Washington?
    Did you ever see that, Mr. Bergin?
    Mr. Bergin. This is the first time I have seen this, sir.
    Mr. Horn. What I am waiting for, and I finally got a little 
bit of it, enough for a little finger, where is the outrage by 
the people in charge of the Department of State? I am outraged 
and I don't need some Justice Department attorney or somebody 
else telling me. If I had been there, that person would have 
been out of there so fast that they wouldn't have known what 
hit them.
    Now, if you have allegations of $10,000 on beds in Las 
Vegas and all of that nonsense, it seems to me that you move 
fast and you get them out, whether they are stealing $10 or 
$10,000.
    Mr. Bergin. Yes. Congressman, this memo is dated June 5. I 
believe that Charles Parish departed post May 30 or 31, about a 
week in advance.
    Mr. Horn. Well, here then the Embassy finally finds out 
that they are the laughingstock of China by other Chinese who 
openly tell our own Embassy personnel in Qingdao what is going 
on.
    Then it seems to me, Mr. Schurman, you have got to make 
awful sure those records are kept somewhere, and it looks like 
nobody did. And I realize it is face and all that bureaucratic 
nonsense, but if you have got somebody that is demeaning the 
United States and demeaning their office after they take an 
oath and are a Foreign Service Officer--I assume Mr. Parish was 
a Foreign Service Officer?
    Mr. Schurman. That's correct.
    Mr. Horn. OK. What rank was he as a Foreign Service 
Officer? Does anybody know?
    Mr. Gnehm. He's a 2.
    Mr. Horn. He's a 2, OK. And he was sort of in that consular 
phase all new Foreign Service Officers are assigned to or 
what--or was that his permanent station?
    Mr. Schurman. He was Chief of the Visa Section.
    Mr. Gnehm. Sir, he was a consular officer within the terms 
of the personnel system.
    Mr. Horn. Well, you know, I look at you all, and I don't 
see any outrage by it, and it just upsets me, I want to tell 
you. I just wonder how much bureaucratic nonsense we can take 
like this, and State doesn't seem to be worried about it.
    Sure, you don't have enough people. Fine. You have enough 
people to get a few people, and that is all you need to do in 
order to tune up the organization. There ought to have been--
the 5 you had somewhere, or the 14, they ought to have 
descended on that Embassy to help.
    I don't understand--I don't think you were around then, Ms. 
Cohen, but it just seems to me good management is dealing with 
these things, and that is why we have an Inspector General who 
can't talk now because of the judicial ruling, and that is why 
we have the General Accounting Office and a number of things to 
try to safeguard what people are sworn to do and uphold the 
laws of this land.
    So, anyhow, I guess I would ask--none of you saw this memo, 
so I guess no outrage was from you, but you did know a number 
of things and allegations that were going on besides this memo. 
Are there any memos you are aware of about this time?
    Mr. Gnehm. Mr. Congressman, I would like to express my 
outrage.
    Mr. Horn. Yes.
    Mr. Gnehm. I would like you to hear it from me, and I would 
like to have the chairman----
    Mr. Horn. Yes.
    Mr. Gnehm. I work every day of my life. I have been 31 
years in the Foreign Service. I happen, thanks to the Secretary 
and the President and the Senate, to be Director General of the 
Foreign Service. I consider it my job, amongst many other 
things, to see that these kinds of things are dealt with.
    In this particular case, what I would say to you is, it 
isn't always--and this is I think the point you all were trying 
to make earlier--it doesn't have to be criminal to still be 
bad. In fact, our ethics regulations are quite clear about 
that, that perceptions are critically important in the kind of 
work we do as public servants. Unfortunately, I think, as the 
Under Secretary said, we don't have sufficient people. The 
numbers the Inspector General gave you----
    Mr. Horn. I understand that, and I think you ought to get 
at that point in the record what resources you have asked for, 
where has it been chopped, either at the Secretary, at OMB, the 
President, Congress, wherever, let us get it in the record.
    Mr. Gnehm. I wanted to respond particularly to the point 
that there is a mechanism that a Chief of Mission has to remove 
an officer that is not performing or is creating a problem, 
particularly even a perceptual, public problem, and he 
exercised that in this case.
    Mr. Horn. Yes. This Deputy Chief of Mission at least knew 
about it around June 5th, might have known a bit earlier.
    Well, let me move on here because time is limited.
    Diplomatic Security began its investigation of Mr. Parish 
about the same time, as I noted, as this memo, and then Mr. 
Schurman informed the committee that when he was starting his 
investigation he requested help from Diplomatic Security to 
conduct his investigation. He was told that DS refused to send 
anyone to Beijing. Why did DS refuse to assist him in the 
investigation?
    Mr. Bergin. That's a very fair question. I think sir, there 
were judgments made that the information that Diplomatic 
Security in Washington needed could be obtained by the RSO 
there with the assistance of the assistant RSO. Given that, 
they would make a determination to provide Don Schurman 
additional support if needed beyond that. They believed at the 
time that the RSO and his assistant could carry out these 
functions, and that they would later be able to re-evaluate the 
need for augmentation for Don.
    Mr. Horn. Well, let me ask you, is it accurate to say that 
your investigation focused on a company called Kwan Hau 
International and several related companies in New York and 
whether they were legitimate sponsors of visa applications?
    Mr. Bergin. That is my understanding, yes, sir.
    Mr. Horn. OK. Did Diplomatic Security investigate the 
allegations relating to whether Mr. Parish had received 
gratuities from, do we pronounce it COFCO or BNU?
    Mr. Bergin. COFCO. I'm not aware of those companies, sir, 
no. The only two companies that I'm aware of, Congressman, are 
Bright City International and Guang Hua.
    Mr. Burton. The gentleman's time has expired. We will give 
you more time, but let me just followup on that.
    It is my understanding that there were 3 or 4 weeks in a 
row that Mr. Parish was in the United States in Las Vegas, Los 
Angeles, I think Texas and some other places, and his expenses 
were paid by COFCO. From what I have heard today, nobody has 
mentioned that. We are talking about thousands and thousands of 
dollars of expenses paid. He had two women with him, one his 
girlfriend and one his secretary. We don't know who paid their 
expenses. He said he paid his own travel expenses.
    I don't know that anybody has checked that out. Has anyone 
checked that out, to see if he paid? Did he have receipts for 
that? Did you check to find out if he paid his own way or did 
COFCO pay that? Because flying from the Orient to all these 
places, staying at posh places, and allegedly $10,000 on the 
bed is a pretty good chunk of money. It seems to me that should 
have been an integral part of the investigation.
    Let me now yield to Mr. Hutchinson.
    Mr. Hutchinson. Thank you, Mr. Chairman. I also want to 
identify with the remarks of Mr. Horn, who expressed his 
outrage, and I am delighted that raised a response anyway.
    I understand there are limited resources, but the problem 
with limited resources is that you are unable to investigate 
everything. In this case, you zeroed in on someone who had very 
serious allegations, and generally you are able to focus 
resources at that particular point.
    So I have been a Federal prosecutor. I know how to deal 
with limited resources. I know that there are only certain 
cases you can investigate. But when you zero in, you finish the 
job, and you do it right, particularly whenever there are such 
serious allegations. So I know some of you weren't even around 
then, but this is very, very disturbing whenever you see so 
many people who are seeking visas and the fairness of that 
process, particularly whenever you are dealing with our 
American citizens that are administrating that process.
    Now, Ms. Bridgers, you indicated in your testimony that you 
submitted to the Department of Justice an advance copy of your 
testimony in which they objected to the testimony because, 
under their impression of Judge Johnson's decision, it violated 
rule 6(e). Is that something you always do, is submit your 
testimony before a committee of the Department of Justice?
    Ms. Williams-Bridgers. No, it's not routine, but in this 
case, because it was a joint investigation, we thought it 
prudent to share our testimony with our partners.
    Mr. Hutchinson. So it was not required?
    Ms. Williams-Bridgers. It's not required, but actually, 
under the IG community standards of conducting our work, it is 
prudent that we share our testimony with all parties that might 
be affected by public disclosure.
    Mr. Hutchinson. Well, whenever they objected, did you 
consider going to Judge Johnson or asking the Department of 
Justice to go to Judge Johnson to get a release from 6(e)?
    Ms. Williams-Bridgers. In fact, we do intend to pursue 
further clarification of the interpretation by the Department 
of Justice, but time certainly did not permit it for this 
hearing, given that my conversation with Justice attorneys was 
at 12 noon yesterday.
    Mr. Hutchinson. So it is your intention to pursue a release 
from 6(e) so that you can provide your testimony to us?
    Ms. Williams-Bridgers. It's my intention to pursue 
clarification of the interpretation of the Chief Judge's 
opinion.
    Mr. Hutchinson. How are you going to do that?
    Ms. Williams-Bridgers. I will be working with my counsel 
and the Department of Justice and the Chief Judge to pursue an 
appropriate course of action.
    Mr. Hutchinson. Well, let me just say that I think that is 
an extraordinarily broad interpretation of rule 6(e). That is 
not appropriate, that is not the intent of rule 6(e), and I 
think that whenever you are looking at testimony that would be 
totally appropriate before this body, I think it should be re-
examined.
    I think that you can re-examine the opinion. I think you 
can testify without any problem of violating rule 6(e). But, 
second, if you did reach that conclusion, you need to go back 
to Judge Johnson and get a release from it because that is an 
extraordinary implementation of rule 6(e) that hampers our 
legitimate work that we are doing.
    Now, I want to understand, your agency, OIG, you have 
administration subpoena power, do you not?
    Ms. Williams-Bridgers. Yes, we do, sir, via an IG subpoena.
    Mr. Hutchinson. And so you don't have to go to a Federal 
grand jury in order to issue a subpoena.
    Ms. Williams-Bridgers. That is correct, but in this 
instance, since the Department of Justice was the lead, we were 
following their instruction and guidance, and it was being 
conducted under the Campaign Contribution Task Force. We 
adhered to their guidance in this case. And, in fact, sir, I 
might add that none of the information that our agents 
collected was pursuant to grand jury subpoenas. None of the 
interviews that my agents conducted alone were conducted under 
grand jury subpoena.
    Mr. Hutchinson. You have a responsibility here, and you 
know, if you are going to share your work and decisionmaking 
with another agency you are, in essence, giving over to the 
Department of Justice all control that you have. And whenever 
you are dealing with a State Department employee that needs to 
be investigated--you know, this is troublesome to me. And, you 
know, I respect in many areas the Department of Justice, the 
work that they are doing, but I think they are flat wrong on 
some things, and in this case it doesn't look good.
    Now, you have got independent subpoena power, and all the 
subpoenas you issued were not issued pursuant to a grand jury 
subpoena. It looks to me like you should have severed that 
investigation so it wouldn't hamper you and you can go ahead 
and pursue it.
    Now, when did you become aware of the allegations of Johnny 
Chung?
    Ms. Williams-Bridgers. The allegations that we first became 
aware of concerned Mr. Parish, and those allegations were 
brought to our attention by the inspectors in the Office of 
Inspector General that were conducting a routine management 
inspection in the fall of 1997.
    Mr. Hutchinson. Fall of 1997 you became aware of Johnny 
Chung's allegation in reference to Mr. Parish?
    Ms. Williams-Bridgers. No, sir. We became aware of the 
allegations concerning Mr. Parish. The allegations concerning 
Mr. Chung were part of the larger investigation that I am not 
in a position to speak about.
    Mr. Hutchinson. Well, is there any reason you cannot at 
this particular point in time conduct an independent IG 
investigation of the allegations that have been made against 
Mr. Parish?
    Ms. Williams-Bridgers. We have conducted such an 
investigation.
    Mr. Hutchinson. And you have determined there is not any 
evidence of criminal wrongdoing?
    Ms. Williams-Bridgers. We closed our case because we found 
there was no evidence of wrongdoing as alleged.
    Mr. Hutchinson. And that includes the allegations of Mr. 
Chung?
    Ms. Williams-Bridgers. We did not investigate allegations 
against Mr. Chung.
    Mr. Hutchinson. I am not saying against Mr. Chung, the 
allegations that Mr. Chung made in reference to Mr. Parish.
    Ms. Williams-Bridgers. I cannot speak about the specific 
allegations that we investigated. I cannot provide you the 
details on the specific allegations that we investigated 
because that is what could be protected by rule 6(e).
    Mr. Hutchinson. Let me make it clear that I don't want to 
prejudge any case, and I am not here to say that Mr. Parish 
committed any criminal acts. I wouldn't want to do that. I 
think everybody is entitled to a fair investigation.
    But I did sit here and hear the testimony of Mr. Chung; 
and, as a former Federal prosecutor, I believe there is 
credible evidence of wrongdoing that has to be investigated. 
And, you know, for you to shut down an investigation and say 
there is not any sufficient evidence of wrongdoing that needs 
to be pursued, particularly even in an administrative 
standpoint, is amazing to me.
    Now, if you eliminate the criminal wrongdoing, though, and 
just look at it from an administrative standpoint--because the 
IG has that responsibility as well, do you not?
    Ms. Williams-Bridgers. That's correct, sir.
    Mr. Hutchinson. And so you made the determination there is 
not any criminal wrongdoing. Have you made a determination 
there is not any basis for administrative action?
    Ms. Williams-Bridgers. There was no basis for us to pursue 
an administrative investigation against Mr. Parish because he 
retired within 4 months of the start of our investigation.
    Mr. Hutchinson. Which again makes no sense to me. This is 
something of public interest, it is a matter of integrity, it 
is a matter of all the other employees that work for the 
Department of State, and I think that, whether he is retired or 
not, you have a responsibility to get to the bottom of them and 
make a determination.
    Ms. Williams-Bridgers. There is no avenue for us to provide 
a referral to the Department for them to take administrative 
action once a person terminates their employment from the 
Department of State. The only reason that we could pursue any 
allegations of wrongdoing against Mr. Parish is if they were 
criminal in nature.
    Mr. Hutchinson. Well, that is an easy way out then.
    OK. My time has expired.
    Mr. Burton. If you want more time for questioning, we will 
get back to you in just a minute.
    You didn't investigate--you can't tell whether you 
investigated any of the allegations made by Mr. Chung.
    Ms. Williams-Bridgers. That's correct, sir.
    Mr. Burton. And you can't tell us whether or not you 
investigated COFCO paying for all of his expenses when he came 
back to the United States with those two ladies?
    Ms. Williams-Bridgers. That's correct.
    Mr. Burton. You can't even tell us if you looked into that?
    Ms. Williams-Bridgers. I cannot.
    Mr. Burton. God, I hope everybody in the country is 
watching this. You have got the Congress of the United States 
trying to find out if somebody was giving visas to people who 
may have been involved in illegal campaign contributions or 
worse, and you can't tell the Congress of the United States 
anything about it, not because of grand jury material--because 
this wasn't done by a grand jury, was it? None of this--these 
were all your subpoenas and your investigation?
    Ms. Williams-Bridgers. We did not issue any subpoenas in 
this instance, but, under Justice's interpretation, the 
information that we collected----
    Mr. Burton. I know, but the point is that there really was 
no grand jury involved.
    Ms. Williams-Bridgers. There were grand jury subpoenas--
excuse me. There was a grand jury impaneled under the campaign 
task force; and, therefore, that reaches into all information 
collected in the course of this joint investigation.
    Mr. Burton. But the investigation that you conducted had 
nothing to do with that grand jury.
    Ms. Williams-Bridgers. The interviews conducted by our 
agents in our investigation were not subject to grand jury 
subpoena, that's correct.
    Mr. Burton. And so when you contacted the grand jury or 
when you contacted the Justice Department, you expanded, 
actually, those that were involved in your investigation 
because you really didn't have to contact the Justice 
Department, did you?
    Ms. Williams-Bridgers. Yes.
    Mr. Burton. You did? Why did you have to contact the 
Justice Department?
    Ms. Williams-Bridgers. We are obliged by law to make early 
consultation and coordination with the Department of Justice 
whenever we are investigating allegations of criminal 
wrongdoing, and we do that routinely on every case.
    Mr. Burton. And so, once you did that, then Justice said, 
well, this falls under the broad interpretation of 6(e)?
    Ms. Williams-Bridgers. No. Once we did--once we did that, 
it fell within the Campaign Contribution Task Force, and then 
later, during the course of the investigation by FBI, a grand 
jury was impaneled.
    Mr. Burton. If the case were closed by Justice, the part of 
your investigation that had nothing to do with the grand jury, 
we could have?
    Ms. Williams-Bridgers. I wish that were the case, but the 
FBI case is closed. Our case is closed and--and was closed as 
of February 1999, and the Justice Department told me yesterday 
that they still considered information that we collected as 
being potentially subject to 6(e).
    Mr. Burton. I think that we need to write a letter to Judge 
Johnson asking for a clarification of her interpretation of 
6(e), because the Justice Department has made this so broad 
that they can obstruct anything Congress does. There is 
absolutely nothing we can do if Janet Reno says it is covered 
by grand jury or by 6(e). I mean, we have got to get an 
interpretation out of the judge some way to make sure that we 
have access. We have had 121 people take the fifth amendment or 
flee the country, Congress is impotent, we are impotent right 
now to do our job, and we represent the people of the United 
States. This has never been done in the history of the country 
that I know of.
    Let me ask you a question. This is to Ms. Cohen. When Mr. 
Parish was sent back to Washington, as your staff has stated, 
he was under criminal investigation, correct?
    Ms. Cohen. Yes.
    Mr. Burton. Yet he was immediately put into a very 
sensitive position involving visas for Iran and Iraq. Why?
    Ms. Cohen. I really would like to have the opportunity to 
clarify that, because I think specific knowledge of what he was 
doing would help you understand the procedure that is followed 
when someone is brought back. So I would like Mary Ryan to 
answer that question since he was in her section.
    Ms. Ryan. In the first place, I should say that the Bureau 
of Consular Affairs was not aware that he was under 
investigation for criminal activities. He had a full security 
clearance when he came to us.
    Mr. Burton. Excuse me for interrupting. A man is coming 
back from a post in China, he is under criminal investigation, 
and you didn't know about it, and therefore, he was put in this 
position?
    Ms. Ryan. He had a--he had a full security clearance.
    Mr. Burton. Why were you not informed that he was under 
criminal investigation?
    Ms. Ryan. I believe it was to protect his rights.
    Mr. Burton. And so because you were protecting his rights 
or his rights were being protected, he was put into another 
position regarding visas for Iran and Iraq in the office in 
Washington?
    Ms. Ryan. He was put into the visa office. We had a 
congressional mandate to--we had to request--all of our posts 
overseas had to request advisory opinions of the visa office on 
every Iranian male over the age of 18.
    Mr. Burton. And he was making these advisory opinion 
decisions?
    Ms. Ryan. He was canvassing the community who had an 
interest in these cases and answering the post. He had no 
direct involvement with the visa applicant. He had no--he had 
no way of doing--he had no discretion.
    Mr. Burton. Let me just followup on that. If he was 
canvassing people, what was he doing when he was canvassing 
people?
    Ms. Ryan. He was asking the FBI, he was asking other 
agencies if they had any derogatory information on the man 
whose name was in the cable. The community would come back and 
say yes or no, and then he would answer the post and say we 
have derogatory information or we do not have derogatory 
information.
    All the incoming cables went to all the agencies, and all 
of the responses went to all of the agencies, so it was totally 
transparent. Mr. Parish had no control whatsoever. He had no 
way of doing anything wrong, of giving an opinion that was not 
the opinion of the community.
    Mr. Burton. It just seems incredible to me that a man that 
is under criminal investigation is put in a position where he 
is perusing and checking with other agencies about criminal 
wrongdoing or possible criminal wrongdoing of people who are 
applying for visas and then giving a recommendation on that. It 
just boggles my mind.
    Ms. Ryan. He wasn't giving a recommendation, Mr. Chairman. 
He was giving--he was giving the answer from the communities, 
the various agencies who had an interest in these cases, but he 
was not giving a recommendation.
    Mr. Burton. He was compiling the information.
    Ms. Ryan. He was compiling the information from the 
agencies and telling the post what those agencies said.
    Mr. Burton. Whether or not these people may have been 
involved in some nefarious activity?
    Ms. Ryan. That's right. Based on information that he got 
from those agencies.
    Mr. Burton. And he was under criminal investigation, and 
you didn't know about it?
    Ms. Ryan. I did not know he was under criminal 
investigation.
    Mr. Burton. I am going to yield to my counsel now. I don't 
think there is going to be any objection.
    Mr. Wilson. I apologize, I did not catch your name at the 
beginning.
    Ms. Ryan. Ryan.
    Mr. Wilson. Ms. Ryan, if I could just followup on that, you 
mentioned that there was no way that Mr. Parish could do 
anything wrong in the post that he was assigned once he came 
back to Washington. Did he have a security clearance?
    Ms. Ryan. He had a full security clearance.
    Mr. Wilson. OK. Is it not possible that he could have done 
something wrong by misusing government information?
    Ms. Ryan. That's total speculation. I would not be able to 
speculate on that.
    Mr. Wilson. My concern following up on that is you 
mentioned there was no way he could do anything wrong.
    Ms. Ryan. There was no way he could do anything wrong in 
responding to those inquiries that came from the field on 
Iranian visa cases.
    Mr. Wilson. But he had come back under a cloud of other 
ethical matters involving taking gratuities or bribes for 
visas. Would it not be possible that there could be some 
possibility of doing something wrong?
    Ms. Ryan. It's too hypothetical for me, sir. I can't answer 
you.
    Mr. Wilson. I'd like to followup on one thing.
    If we could take a document, CP-1, please, and put that up 
on the screen, and if everybody could take a look at that in 
their documents. It's a document from a fundraiser held here in 
the United States. It's the very first document in the package. 
And if you look down in the second column of names, the bottom 
three names are Mr. Charles Parish, Ms. Fan Zhang, and Ms. 
Diana Douglas. And my question here is, we have been told that 
Mr. Parish attended a fundraiser that cost $1,000 per person. 
He took his girlfriend and his sister to the fundraiser, and 
Diana Douglas is the sister. Mr. Johnny Chung apparently paid 
the $1,000 admission fee for this fundraiser.
    The question simply is this, are you all, and I will go 
down the line here, are you all aware of this document?
    Mr. Schurman.
    Mr. Schurman. No, I am not.
    Mr. Wilson. Mr. Bergin.
    Mr. Bergin. This is the first time I have seen it, sir.
    Mr. Wilson. Ms. Cohen.
    Ms. Cohen. No.
    Mr. Wilson. Ms. Ryan.
    Ms. Ryan. No. First time I have seen it, too.
    Mr. Wilson. OK. Now, Ms. Williams-Bridgers, I would like to 
ask you the question. You mentioned that you had closed your 
investigation because you had found that nobody did anything 
wrong or that you were unable to find anything wrong. The 
simple question here would be, would it be acceptable to take a 
$1,000 gratuity to attend a fundraiser?
    Ms. Williams-Bridgers. Responding in generic terms, there 
is certainly consular guidance which suggests that there's 
impropriety in accepting gifts in excess of certain amounts 
from those who are potential visa applicants or with whom you 
are doing business.
    Mr. Wilson. OK. Now are you aware of whether Mr. Parish did 
or did not provide a visa for Fan Zhang?
    Ms. Williams-Bridgers. I can't answer that, given the grand 
jury protection.
    Mr. Wilson. You can't answer it?
    Ms. Williams-Bridgers. I can't answer.
    Mr. Wilson. You can't answer it, but you're not telling me 
that you're not aware or you are aware?
    Ms. Williams-Bridgers. I am not telling you that I am not 
aware.
    Mr. Wilson. OK. Now, just speaking about this very 
generically as we are right here, would it be a matter of 
impropriety, a statutory violation if there was acceptance of a 
$1,000 gratuity in this particular case?
    Ms. Williams-Bridgers. I'm not certain that there would be 
a statutory violation. It would be a consideration of 
impropriety.
    Mr. Wilson. OK. Now this is something that--and I will ask 
you this question--was or was it not taken into account in the 
closing out of your investigation?
    Ms. Williams-Bridgers. I can't answer whether or not this 
information was taken into account.
    Mr. Wilson. OK. Turning to the question of whether the 
gratuity was provided for people who were associated with Mr. 
Parish, was that something that was considered by you in 
determining whether there was an impropriety or not?
    Ms. Williams-Bridgers. I cannot answer that question.
    Mr. Wilson. OK. Turning to another matter, the issue of 
reporting contacts with Chinese citizens by Embassy officials, 
are you aware of whether Mr. Parish did or did not report this 
particular attendance at the fundraiser to Embassy officials?
    Ms. Williams-Bridgers. I can't answer that question.
    Mr. Wilson. Simply because you're not able to due to 6(e)?
    Ms. Williams-Bridgers. Because of the 6(e) protection, 
that's correct.
    Mr. Wilson. Let us just ask somebody else.
    Mr. Bergin, are you aware of whether the fact of the 
attendance was even reported to Embassy personnel in Beijing?
    Mr. Bergin. I'm not aware, but I defer to Don Schurman, the 
RSO.
    Mr. Wilson. OK. Mr. Schurman, are you aware of even the 
fact of attendance at this expensive fundraiser?
    Mr. Schurman. I don't recall this being reported.
    Mr. Wilson. OK. Turning to another subject, when Mr. Parish 
returned to Washington, DC, and assumed the position that he 
was given, it's our understanding from personnel records that 
he was given a series of raises; is that correct, Mr. Schurman?
    Mr. Schurman. I left Beijing in October 1997 so----
    Mr. Wilson. Maybe Mr. Gnehm--and I thank you very much for 
coming back to the table. Perhaps you're aware of whether Mr. 
Parish was given raises when he returned to Washington, DC.
    Mr. Gnehm. Sir, the year that he was serving in this job 
that you asked about earlier in CA, his performance file went 
before the promotion--Annual Promotion Board. That board did 
list him as a recipient for a step increase, called, in the 
system, meritorious step increase in salary, based on what was 
in his file at the time. I should tell you for the record, 
they're not under management control. The board is an 
independent board set up to make these decisions, and 
management has no authority over the decisions.
    Mr. Wilson. Are you aware of how many raises Mr. Parish 
received from the time he returned from Beijing until the time 
he retired from the Foreign Service?
    Mr. Gnehm. I'm aware of the one you asked me about. There 
may have been others, and I can check for you, but I wouldn't 
want to definitively say one way or the other.
    Mr. Wilson. Thank you for that.
    Mr. Bergin, I just wanted to ask you a question. You 
mentioned in your statement a little while ago that when you 
served in India you describe what appeared to be a sting 
operation involving somebody about whom there were allegations 
of impropriety. Was that ever considered as an option for Mr. 
Parish?
    Mr. Bergin. In conducting a visa fraud case, there are 
several steps.
    First, you have to determine what is the credibility of the 
source? Is what the source is providing you valid? Is it 
something that's detailed, that's specific, that's precise, 
that would lead to us launching a full-blown investigation?
    Then you have to determine to whom were the visas issued 
and can you identify those people? Because what you want to do 
in these cases is to be able to establish a relationship 
between the person who was given the visa----
    Mr. Wilson. If I could just interrupt you there, are you 
telling us now that the visas issued in India were of greater 
sensitivity or consequence than the visas issued in China?
    Mr. Bergin. Not at all. Not at all.
    Mr. Wilson. Then there's a difficulty there.
    Mr. Bergin. What I'm giving you is a generic sense of how 
you conduct these investigations; and in the case in India, we 
had very specific, very precise information. The consular 
officer volunteered to us, as soon as it happened, the 
information that he was being bribed.
    In the case of Mr. Parish, there was a lot of information 
swirling around about improprieties, apparent improprieties, 
and the agents, when they were conducting this investigation, 
were not able to determine whether there was criminal substance 
to this swirling wave of allegations.
    Mr. Wilson. Well, I think our concern, Mr. Bergin, is that 
when we have looked at the investigations, each sort of piece 
of each investigation looked at one piece of the puzzle, and 
when we scratched beneath the surface, we found many more 
issues that were easily obtained.
    For example, allegations by the colleagues of Mr. Parish in 
this case, who were talking about the trading of visas that 
followed from personal relationships with women, acceptance of 
gratuities, and there were indeed gratuities that were easily 
obtained from his office. So there were certainly things that 
went beyond rank speculation.
    Mr. Bergin. I think that's fair, counsel. I would only 
remind the counsel of my statement earlier that this was not a 
model investigation; and, in retrospect, 20/20 hindsight, those 
consular officers should have been interviewed.
    Mr. Wilson. I just wanted to followup on one other thing. 
In terms of Mr. Parish's tenure in Beijing, I think we have 
already learned that he had high security clearances during the 
entire time he was in Beijing. Are you aware of whether Mr. 
Parish was at the time receiving classified documents from the 
Department of Justice and the FBI about ongoing criminal 
investigations, Mr. Schurman?
    Mr. Schurman. I was not involved with that part of the 
consular operation.
    Mr. Wilson. Well, now we can't get into the documents 
because they are classified, but these are documents that have 
been turned over from his own office. So did you review 
documents obtained from Mr. Parish's office that were 
classified investigatory documents from the Department of 
Justice?
    Mr. Schurman. Mr. Parish's office was a common area, and so 
classified documents would not be kept in that area. I did not 
find any classified documents in his office space.
    Mr. Wilson. Having just reviewed a number of them and gone 
through a number of issues with the Department of State over 
documents that were provided to us--in fact, they were provided 
to us in an open way, and we brought it to the Department of 
State's attention that they should have been classified. They 
had just been turned over to us in a box.
    Mr. Burton. Let me just interrupt here. Mr. Schurman, you 
said you looked at all these documents. Now, the documents that 
he is referring to were given to us by the Department of State, 
and in that box of documents were classified documents, and you 
just said there were no classified documents. So are you 
telling me that you looked at all the documents and you didn't 
see those classified documents? They were there. We got them.
    Mr. Schurman. I am not sure that the documents in that box 
all came from that office. But I will say that when I was going 
through the----
    Mr. Burton. The State Department said they did. The State 
Department sent us those documents.
    Mr. Wilson. Perhaps if we could follow with Ms. Williams-
Bridgers, I will ask the same question of you. Were you aware 
that Mr. Parish was privy to classified documents from the 
Department of Justice and the Federal Bureau of Investigation?
    Ms. Williams-Bridgers. I can say that, in the course of Mr. 
Parish's business, he more than likely came in contact with 
classified documents; and I do believe that the documents that 
you're referring to were part of our collection of all 
documents from his office. They were included in the submission 
of documents that we provided to the committee.
    Mr. Wilson. So they would have been in the universe of 
documents that Mr. Schurman had access to when he had done his 
investigation?
    Ms. Williams-Bridgers. That's my understanding, yes.
    Mr. Wilson. Actually, just one more point of clarification 
for Ms. Williams-Bridgers. As far as your negotiations with the 
Department of Justice go, with whom were you dealing over at 
the Department of Justice to come to the 6(e) determination 
that you arrived at?
    Ms. Williams-Bridgers. I was dealing with attorneys out of 
the Attorney General's office.
    But I should also add that I, too, am terribly concerned 
about the interpretation--the expansive interpretation the 
Department of Justice has given. It has implications not just 
for this case but for any other case in which grand jury 
subpoenas have been issued in the District of Columbia. And 
because we have just become aware of the expansive nature of 
this opinion, it has implications for how we have handled 
documents in the past related to other investigations. So I do 
intend to seek some additional clarification from the Office of 
Legal Counsel of the Department of Justice and, potentially, 
the Chief Judge.
    Mr. Wilson. Thank you for that answer. If you could--just 
for the record's sake, if you could provide the names of the 
people you were working with at DOJ.
    Ms. Williams-Bridgers. Yes, I can.
    Mr. Wilson. If you could right now, that would be helpful.
    Ms. Williams-Bridgers. I can provide it for the record.
    Mr. Wilson. OK. Do you know them now? Are you able to tell 
us right now what they are?
    Ms. Williams-Bridgers. I can't recall the last names of the 
individuals, I am sorry.
    Mr. Wilson. OK. Fair enough.
    Mr. Burton. Does anyone with you have their name?
    Ms. Williams-Bridgers. Craig Iscoe is the chief attorney 
that we dealt with.
    Mr. Burton. OK. Let me end up by saying this.
    First of all, I am disappointed, Mr. Schurman, because you 
told us under oath that you looked at--did a cursory look at 
all these documents and there were no classified documents. Ms. 
Williams-Bridgers said that the documents that were turned over 
to us in the box came from his office. So you didn't look at 
all of them; and, if you did, you didn't look very well. And 
then all those documents were turned over to somebody else, and 
ultimately they were destroyed, and it was an ongoing 
investigation. This thing was botched, and it is just 
unbelievable.
    I would just like to say to the State Department people, 
who in the future will be in charge of these investigations, 
for goodness sake, if there is an ongoing investigation and you 
lock up an office, don't burn up or destroy anything until the 
investigation is concluded. The Justice Department says this 
thing is still open, and a lot of the documents that might be 
relevant are gone, and Parish had classified documents in his 
office.
    Now, the reason this is important, and you may think we 
have been unduly critical today, but the reason this is 
important is people were coming into this country that may have 
been involved in espionage, that may have gotten visas 
illegally, and the espionage that took place endangered every 
man, woman, and child in this country. They got nuclear secrets 
from Los Alamos and other nuclear laboratories, and we don't 
know what kind of connection there might have been. So a sloppy 
job could have led to all kinds of problems.
    In addition to that, Johnny Chung was a main player in the 
conduit contributions that were coming in that affected the 
1996 Presidential election; and he has stated that Mr. Ji, the 
head of the Chinese military intelligence, gave him $300,000, 
along with other contributions that came in from Communist 
China, to affect our elections in this country. And if visas 
that were requested by Johnny Chung from Mr. Parish were 
bringing people in who were affecting our elections by giving 
illegal campaign contributions, then that is criminal, and to 
do a sloppy job on investigating Mr. Parish, who may have been 
involved in doing all this, is just unconscionable.
    And I just tell you, I am really frustrated by this, 
because none of this should have happened. If you need more 
money, we will try to get it for you, if you need more 
personnel. We are not talking about Ireland. We are not talking 
about England. We are not talking about South America. We are 
talking about the biggest country in the world population-wise 
that is one of our potential major adversaries down the way, 
and they were getting illegal visas from a person who was 
involved in some nefarious activities, Mr. Chung, who is 
helping get those visas, at least that is what he said, and it 
is just unfortunate.
    Ms. Williams-Bridgers. Mr. Chairman, may I just interject 
please and add one point of possible clarification?
    For the documents that we received, the classified 
documents that we received, it is conceivable that they could 
have come from Diplomatic Security and not from--not 
necessarily from Mr. Parish's office. Because in our attempt to 
collect any and all documentation, we asked for all the 
contents from Mr. Parish's office as well as all DS 
investigative files and any other information that Mr. Parish 
may have had in his possession.
    Mr. Burton. Well, where would it have come from if it 
didn't come from his office?
    Ms. Williams-Bridgers. Conceivably, it could have come from 
elsewhere outside of Mr. Parish's office at the Embassy or from 
Washington from the DS files. We asked for the collection of 
documents from DS. All of the contents of Mr. Parish's office 
in Embassy Beijing were sent first to DS in Washington, and 
then DS transmitted that information to us. So it is possible 
that classified information did not come from Mr. Parish's 
office.
    Mr. Burton. It is possible?
    Ms. Williams-Bridgers. Yes.
    Mr. Burton. But you don't know that?
    Mr. Schurman. I did have classified files in Beijing, as 
well as the unclassified files, and I assume that when they 
asked for the files relating to Charles Parish in Beijing they 
give them both, both the materials that were out of my safe and 
the materials that were stored in a closet.
    Mr. Burton. So you had stuff in your safe relating to 
Charles Parish and classified material?
    Mr. Schurman. The official file was in the safe.
    Mr. Burton. And it had classified material in it?
    Mr. Schurman. That's correct.
    Mr. Wilson. Relating to Charles Parish and some of the 
things he was doing?
    Mr. Schurman. That's correct.
    Ms. Cohen. Mr. Chairman, if we're concluding, could I say a 
few things?
    Mr. Burton. Sure.
    Ms. Cohen. Thank you very much. You did allude to the fact 
that it's difficult to come up here to testify, but I think 
nonetheless it's important. We recognize that this committee is 
performing an important function, and it does help to have us 
review what we have done to find weaknesses in what we've done 
and improve. We have tried to do that, and we will continue to 
try to do that.
    I want to correct, I think, two impressions that we might 
have left. The first concerns our limited resources. I never 
meant to imply, and I don't think I did imply, that limited 
resources ever justify not doing a very thorough job in an 
investigation, and I think we would all agree here that 
procedures needed to be tightened. We're in the process of 
tightening them. We need additional resources, but when we find 
a problem, we are prepared to direct resources to deal with it.
    The final point I'd like the make is as to whether or not 
we're all outraged. Again, I have only been there 2 years but 
in those 2 years, I have not found an instance where people 
have been accused of something that their fellow workers and 
the people who are investigating it and really everyone who 
knows about it are not outraged. It would be the same thing as 
if someone were investigating a Congressman or a member of 
somebody's staff. It casts aspersions on everyone, and it's 
been my impression that the State Department is outraged when 
one of their fellow workers is involved in something like this, 
and the Department does its best to clean it up and improve it.
    Mr. Burton. Well, let me conclude by saying I appreciate 
you all being here and that we in the Congress believe that 
99.9 percent of the people who serve this country at home and 
abroad do an outstanding job. It is that one-tenth of 1 percent 
that we are talking about, and in this particular case, it was 
in a very sensitive area, in China, and it is really 
unfortunate that happened.
    I would just urge you, though, in the future if there is an 
ongoing criminal investigation of anybody, if you need to store 
the documents and you can't find a place for them, call me. We 
will find a place to store the documents. Don't destroy 
documents or anything that is potential evidence until the case 
is closed.
    And, with that, I want to thank you for being here. We 
stand adjourned.
    [Whereupon, at 1:45 p.m., the committee was adjourned.]
    [The two majority staff reports and exhibits referred to 
follow:]

[GRAPHIC] [TIFF OMITTED] T2410.038

[GRAPHIC] [TIFF OMITTED] T2410.039

[GRAPHIC] [TIFF OMITTED] T2410.040

[GRAPHIC] [TIFF OMITTED] T2410.041

[GRAPHIC] [TIFF OMITTED] T2410.042

[GRAPHIC] [TIFF OMITTED] T2410.043

[GRAPHIC] [TIFF OMITTED] T2410.044

[GRAPHIC] [TIFF OMITTED] T2410.045

[GRAPHIC] [TIFF OMITTED] T2410.046

[GRAPHIC] [TIFF OMITTED] T2410.047

[GRAPHIC] [TIFF OMITTED] T2410.048

[GRAPHIC] [TIFF OMITTED] T2410.049

[GRAPHIC] [TIFF OMITTED] T2410.050

[GRAPHIC] [TIFF OMITTED] T2410.051

[GRAPHIC] [TIFF OMITTED] T2410.052

[GRAPHIC] [TIFF OMITTED] T2410.053

[GRAPHIC] [TIFF OMITTED] T2410.054

[GRAPHIC] [TIFF OMITTED] T2410.055

[GRAPHIC] [TIFF OMITTED] T2410.056

[GRAPHIC] [TIFF OMITTED] T2410.057

[GRAPHIC] [TIFF OMITTED] T2410.058

[GRAPHIC] [TIFF OMITTED] T2410.059

[GRAPHIC] [TIFF OMITTED] T2410.060

[GRAPHIC] [TIFF OMITTED] T2410.061

[GRAPHIC] [TIFF OMITTED] T2410.062

[GRAPHIC] [TIFF OMITTED] T2410.063

[GRAPHIC] [TIFF OMITTED] T2410.064

[GRAPHIC] [TIFF OMITTED] T2410.065

[GRAPHIC] [TIFF OMITTED] T2410.066

[GRAPHIC] [TIFF OMITTED] T2410.067

[GRAPHIC] [TIFF OMITTED] T2410.068

[GRAPHIC] [TIFF OMITTED] T2410.069

[GRAPHIC] [TIFF OMITTED] T2410.070

[GRAPHIC] [TIFF OMITTED] T2410.071

[GRAPHIC] [TIFF OMITTED] T2410.072

[GRAPHIC] [TIFF OMITTED] T2410.073

[GRAPHIC] [TIFF OMITTED] T2410.074

[GRAPHIC] [TIFF OMITTED] T2410.075

[GRAPHIC] [TIFF OMITTED] T2410.076

[GRAPHIC] [TIFF OMITTED] T2410.077

[GRAPHIC] [TIFF OMITTED] T2410.078

[GRAPHIC] [TIFF OMITTED] T2410.079

[GRAPHIC] [TIFF OMITTED] T2410.080

[GRAPHIC] [TIFF OMITTED] T2410.081

[GRAPHIC] [TIFF OMITTED] T2410.082

[GRAPHIC] [TIFF OMITTED] T2410.083

[GRAPHIC] [TIFF OMITTED] T2410.084

[GRAPHIC] [TIFF OMITTED] T2410.085

[GRAPHIC] [TIFF OMITTED] T2410.086

[GRAPHIC] [TIFF OMITTED] T2410.087

[GRAPHIC] [TIFF OMITTED] T2410.088

[GRAPHIC] [TIFF OMITTED] T2410.089

[GRAPHIC] [TIFF OMITTED] T2410.090

[GRAPHIC] [TIFF OMITTED] T2410.091

[GRAPHIC] [TIFF OMITTED] T2410.092

[GRAPHIC] [TIFF OMITTED] T2410.093

[GRAPHIC] [TIFF OMITTED] T2410.094

[GRAPHIC] [TIFF OMITTED] T2410.095

[GRAPHIC] [TIFF OMITTED] T2410.096

[GRAPHIC] [TIFF OMITTED] T2410.097

[GRAPHIC] [TIFF OMITTED] T2410.098

[GRAPHIC] [TIFF OMITTED] T2410.099

[GRAPHIC] [TIFF OMITTED] T2410.100

[GRAPHIC] [TIFF OMITTED] T2410.101

[GRAPHIC] [TIFF OMITTED] T2410.102

[GRAPHIC] [TIFF OMITTED] T2410.103

[GRAPHIC] [TIFF OMITTED] T2410.104

[GRAPHIC] [TIFF OMITTED] T2410.105

[GRAPHIC] [TIFF OMITTED] T2410.106

[GRAPHIC] [TIFF OMITTED] T2410.107

[GRAPHIC] [TIFF OMITTED] T2410.108

[GRAPHIC] [TIFF OMITTED] T2410.109

[GRAPHIC] [TIFF OMITTED] T2410.110

[GRAPHIC] [TIFF OMITTED] T2410.111

[GRAPHIC] [TIFF OMITTED] T2410.112

[GRAPHIC] [TIFF OMITTED] T2410.113

[GRAPHIC] [TIFF OMITTED] T2410.114

[GRAPHIC] [TIFF OMITTED] T2410.115

[GRAPHIC] [TIFF OMITTED] T2410.116

[GRAPHIC] [TIFF OMITTED] T2410.117

[GRAPHIC] [TIFF OMITTED] T2410.118

[GRAPHIC] [TIFF OMITTED] T2410.119

[GRAPHIC] [TIFF OMITTED] T2410.120

[GRAPHIC] [TIFF OMITTED] T2410.121

[GRAPHIC] [TIFF OMITTED] T2410.122

[GRAPHIC] [TIFF OMITTED] T2410.123

[GRAPHIC] [TIFF OMITTED] T2410.124

[GRAPHIC] [TIFF OMITTED] T2410.125

[GRAPHIC] [TIFF OMITTED] T2410.126

[GRAPHIC] [TIFF OMITTED] T2410.127

[GRAPHIC] [TIFF OMITTED] T2410.128

[GRAPHIC] [TIFF OMITTED] T2410.129

[GRAPHIC] [TIFF OMITTED] T2410.130

[GRAPHIC] [TIFF OMITTED] T2410.131

[GRAPHIC] [TIFF OMITTED] T2410.132

[GRAPHIC] [TIFF OMITTED] T2410.133

[GRAPHIC] [TIFF OMITTED] T2410.134

[GRAPHIC] [TIFF OMITTED] T2410.135

[GRAPHIC] [TIFF OMITTED] T2410.136

[GRAPHIC] [TIFF OMITTED] T2410.137

[GRAPHIC] [TIFF OMITTED] T2410.138

[GRAPHIC] [TIFF OMITTED] T2410.139

[GRAPHIC] [TIFF OMITTED] T2410.140

[GRAPHIC] [TIFF OMITTED] T2410.141

[GRAPHIC] [TIFF OMITTED] T2410.142

[GRAPHIC] [TIFF OMITTED] T2410.143

[GRAPHIC] [TIFF OMITTED] T2410.144

[GRAPHIC] [TIFF OMITTED] T2410.145

[GRAPHIC] [TIFF OMITTED] T2410.146

[GRAPHIC] [TIFF OMITTED] T2410.147

[GRAPHIC] [TIFF OMITTED] T2410.148

[GRAPHIC] [TIFF OMITTED] T2410.149

[GRAPHIC] [TIFF OMITTED] T2410.150

[GRAPHIC] [TIFF OMITTED] T2410.151

[GRAPHIC] [TIFF OMITTED] T2410.152

[GRAPHIC] [TIFF OMITTED] T2410.153

[GRAPHIC] [TIFF OMITTED] T2410.154

[GRAPHIC] [TIFF OMITTED] T2410.155

[GRAPHIC] [TIFF OMITTED] T2410.156

[GRAPHIC] [TIFF OMITTED] T2410.157

[GRAPHIC] [TIFF OMITTED] T2410.158

[GRAPHIC] [TIFF OMITTED] T2410.159

[GRAPHIC] [TIFF OMITTED] T2410.160

[GRAPHIC] [TIFF OMITTED] T2410.161

[GRAPHIC] [TIFF OMITTED] T2410.162

[GRAPHIC] [TIFF OMITTED] T2410.163

[GRAPHIC] [TIFF OMITTED] T2410.164

[GRAPHIC] [TIFF OMITTED] T2410.165

[GRAPHIC] [TIFF OMITTED] T2410.166

[GRAPHIC] [TIFF OMITTED] T2410.167

[GRAPHIC] [TIFF OMITTED] T2410.168

[GRAPHIC] [TIFF OMITTED] T2410.169

[GRAPHIC] [TIFF OMITTED] T2410.170

[GRAPHIC] [TIFF OMITTED] T2410.171

[GRAPHIC] [TIFF OMITTED] T2410.172

[GRAPHIC] [TIFF OMITTED] T2410.173

[GRAPHIC] [TIFF OMITTED] T2410.174

[GRAPHIC] [TIFF OMITTED] T2410.175

[GRAPHIC] [TIFF OMITTED] T2410.176

[GRAPHIC] [TIFF OMITTED] T2410.177

[GRAPHIC] [TIFF OMITTED] T2410.178

[GRAPHIC] [TIFF OMITTED] T2410.179

[GRAPHIC] [TIFF OMITTED] T2410.180

[GRAPHIC] [TIFF OMITTED] T2410.181

[GRAPHIC] [TIFF OMITTED] T2410.182

[GRAPHIC] [TIFF OMITTED] T2410.183

[GRAPHIC] [TIFF OMITTED] T2410.184

[GRAPHIC] [TIFF OMITTED] T2410.185

[GRAPHIC] [TIFF OMITTED] T2410.186

[GRAPHIC] [TIFF OMITTED] T2410.187

[GRAPHIC] [TIFF OMITTED] T2410.188

[GRAPHIC] [TIFF OMITTED] T2410.189

[GRAPHIC] [TIFF OMITTED] T2410.190

[GRAPHIC] [TIFF OMITTED] T2410.191

[GRAPHIC] [TIFF OMITTED] T2410.192

[GRAPHIC] [TIFF OMITTED] T2410.193

[GRAPHIC] [TIFF OMITTED] T2410.194

[GRAPHIC] [TIFF OMITTED] T2410.195

[GRAPHIC] [TIFF OMITTED] T2410.196

[GRAPHIC] [TIFF OMITTED] T2410.197

[GRAPHIC] [TIFF OMITTED] T2410.198

[GRAPHIC] [TIFF OMITTED] T2410.199

[GRAPHIC] [TIFF OMITTED] T2410.200

[GRAPHIC] [TIFF OMITTED] T2410.201

[GRAPHIC] [TIFF OMITTED] T2410.202

[GRAPHIC] [TIFF OMITTED] T2410.203

[GRAPHIC] [TIFF OMITTED] T2410.204

[GRAPHIC] [TIFF OMITTED] T2410.205

[GRAPHIC] [TIFF OMITTED] T2410.206

[GRAPHIC] [TIFF OMITTED] T2410.207

[GRAPHIC] [TIFF OMITTED] T2410.208

[GRAPHIC] [TIFF OMITTED] T2410.209

[GRAPHIC] [TIFF OMITTED] T2410.210

[GRAPHIC] [TIFF OMITTED] T2410.211

[GRAPHIC] [TIFF OMITTED] T2410.212

[GRAPHIC] [TIFF OMITTED] T2410.213

[GRAPHIC] [TIFF OMITTED] T2410.214

[GRAPHIC] [TIFF OMITTED] T2410.215

[GRAPHIC] [TIFF OMITTED] T2410.216

[GRAPHIC] [TIFF OMITTED] T2410.217

[GRAPHIC] [TIFF OMITTED] T2410.218

[GRAPHIC] [TIFF OMITTED] T2410.219

[GRAPHIC] [TIFF OMITTED] T2410.220

[GRAPHIC] [TIFF OMITTED] T2410.221

[GRAPHIC] [TIFF OMITTED] T2410.222

[GRAPHIC] [TIFF OMITTED] T2410.223

[GRAPHIC] [TIFF OMITTED] T2410.224

[GRAPHIC] [TIFF OMITTED] T2410.225

[GRAPHIC] [TIFF OMITTED] T2410.226

[GRAPHIC] [TIFF OMITTED] T2410.227

[GRAPHIC] [TIFF OMITTED] T2410.228

[GRAPHIC] [TIFF OMITTED] T2410.229

[GRAPHIC] [TIFF OMITTED] T2410.230

[GRAPHIC] [TIFF OMITTED] T2410.231

[GRAPHIC] [TIFF OMITTED] T2410.232

[GRAPHIC] [TIFF OMITTED] T2410.233

[GRAPHIC] [TIFF OMITTED] T2410.234

[GRAPHIC] [TIFF OMITTED] T2410.235

[GRAPHIC] [TIFF OMITTED] T2410.236

[GRAPHIC] [TIFF OMITTED] T2410.237

[GRAPHIC] [TIFF OMITTED] T2410.238

[GRAPHIC] [TIFF OMITTED] T2410.239

[GRAPHIC] [TIFF OMITTED] T2410.240

[GRAPHIC] [TIFF OMITTED] T2410.241

[GRAPHIC] [TIFF OMITTED] T2410.242

[GRAPHIC] [TIFF OMITTED] T2410.243

[GRAPHIC] [TIFF OMITTED] T2410.244

[GRAPHIC] [TIFF OMITTED] T2410.245

[GRAPHIC] [TIFF OMITTED] T2410.246

[GRAPHIC] [TIFF OMITTED] T2410.247

[GRAPHIC] [TIFF OMITTED] T2410.248

[GRAPHIC] [TIFF OMITTED] T2410.249

[GRAPHIC] [TIFF OMITTED] T2410.250

[GRAPHIC] [TIFF OMITTED] T2410.251

[GRAPHIC] [TIFF OMITTED] T2410.252

[GRAPHIC] [TIFF OMITTED] T2410.253

[GRAPHIC] [TIFF OMITTED] T2410.254

[GRAPHIC] [TIFF OMITTED] T2410.255

[GRAPHIC] [TIFF OMITTED] T2410.256

[GRAPHIC] [TIFF OMITTED] T2410.257

[GRAPHIC] [TIFF OMITTED] T2410.258

[GRAPHIC] [TIFF OMITTED] T2410.259

[GRAPHIC] [TIFF OMITTED] T2410.260

[GRAPHIC] [TIFF OMITTED] T2410.261

[GRAPHIC] [TIFF OMITTED] T2410.262

[GRAPHIC] [TIFF OMITTED] T2410.263

[GRAPHIC] [TIFF OMITTED] T2410.264

[GRAPHIC] [TIFF OMITTED] T2410.265

[GRAPHIC] [TIFF OMITTED] T2410.266

[GRAPHIC] [TIFF OMITTED] T2410.267

[GRAPHIC] [TIFF OMITTED] T2410.268

[GRAPHIC] [TIFF OMITTED] T2410.269

[GRAPHIC] [TIFF OMITTED] T2410.270

[GRAPHIC] [TIFF OMITTED] T2410.271

[GRAPHIC] [TIFF OMITTED] T2410.272

[GRAPHIC] [TIFF OMITTED] T2410.273


</pre></body></html>
